<html>
<title> - CORONAVIRUSES: UNDERSTANDING THE SPREAD OF INFECTIOUS DISEASES AND MOBILIZING INNOVATIVE SOLUTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      CORONAVIRUSES: UNDERSTANDING
                   THE SPREAD OF INFECTIOUS DISEASES
                   AND MOBILIZING INNOVATIVE SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2020

                               __________

                           Serial No. 116-71

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-909 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                FRANCIS ROONEY, Florida
DON BEYER, Virginia                  GREGORY F. MURPHY, North Carolina
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                         C  O  N  T  E  N  T  S

                             March 5, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Ami Bera, Vice Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written statement............................................    11

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written statement............................................    13

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    47

                               Witnesses:

Dr. Suzan Murray, Program Director, Smithsonian Global Health 
  Program, Smithsonian's National Zoo & Conservation Biology 
  Institute
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. John Brownstein, Chief Innovation Officer, Boston Children's 
  Hospital; Professor, Harvard Medical School
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Peter Hotez, Professor and Dean, National School of Tropical 
  Medicine, Baylor College of Medicine; Co-Director, Texas 
  Children's Hospital Center for Vaccine Development
    Oral Statement...............................................    30
    Written Statement............................................    33

Dr. Tara Kirk Sell, Senior Scholar, Johns Hopkins Center for 
  Health Security; Assistant Professor, Johns Hopkins Bloomberg 
  School of Public Health
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion.......................................................    47

             Appendix I: Answers to Post-Hearing Questions

Dr. Suzan Murray, Program Director, Smithsonian Global Health 
  Program, Smithsonian's National Zoo & Conservation Biology 
  Institute......................................................    72

Dr. John Brownstein, Chief Innovation Officer, Boston Children's 
  Hospital; Professor, Harvard Medical School....................    76

Dr. Peter Hotez, Professor and Dean, National School of Tropical 
  Medicine, Baylor College of Medicine; Co-Director, Texas 
  Children's Hospital Center for Vaccine Development.............    82

Dr. Tara Kirk Sell, Senior Scholar, Johns Hopkins Center for 
  Health Security; Assistant Professor, Johns Hopkins Bloomberg 
  School of Public Health........................................    86

            Appendix II: Additional Material for the Record

Letter submitted by Representative Ami Bera, Vice Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    90

Articles submitted by Representative Ed Perlmutter, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    91

Article submitted by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   126

Letter submitted by Representative Don Beyer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   131

 
                      CORONAVIRUSES: UNDERSTANDING
                   THE SPREAD OF INFECTIOUS DISEASES
                  AND MOBILIZING INNOVATIVE SOLUTIONS

                              ----------                              


                        THURSDAY, MARCH 5, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Committee met, pursuant to notice, at 9:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Ami Bera 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairman Bera. This hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time. Good morning, and welcome today's hearing on 
``Coronavirus: Understanding the Spread of the Infectious 
Disease, and Mobilizing Innovative Solutions''. I'll recognize 
myself for an opening statement, and then I'll recognize the 
Ranking Member for his opening statement, then we'll introduce 
the witnesses.
     Again, thank you for being here. Obviously, this is an 
incredibly timely topic. COVID-19 is not the first pandemic 
we're going to ever deal with, and it certainly is not going to 
be the last one, but it is incredibly important that we come 
together as a nation, and as a planet, to get ahead of this, 
address it, and, you know, come up with the treatment for it. 
If we think about, you know, the basis of global health 
security, it's a three-pronged approach, containment, 
mitigation, and then treatment.
     This is the third hearing that I'm chairing on this 
subject, and the first hearing focused on the containment 
strategy. That was actually the first hearing that Congress 
held. Conclusion of that was the initial strategy of trying to 
contain this disease with travel bans, et cetera, was likely 
not going to be successful, very difficult. You know, I think 
what China did was ambitious, it bought us some time but most 
of us in the public health world--and I'm a physician by 
background, and ran a large public health system--recognize 
that we would likely see community cases. It would be very 
difficult to stop the spread of this disease.
     The second hearing we had, which was last Thursday, was on 
mitigation, largely looking at testing. And this was last 
Thursday, after the first community spread case hit my home 
county of Sacramento, where a patient was hospitalized at the 
University of California Davis Health System, where I used to 
practice. What we discovered was, you know, the testing 
criteria were probably too rigid, that we were missing a lot of 
community tests, and we also started to discover the ability to 
test folks, the availability of test kits, et cetera, was 
largely not there. I'm pleased, you know, to hear the Vice 
President yesterday. Things are ramping up, but we probably did 
lose quite a bit of time, and we are likely going to see many 
more community cases, probably in all of our congressional 
districts. So we still, you know, there's a lot to be learned 
from kind of the bureaucratic breakdown that prevented us from 
rapidly getting those tests out there.
     Today's hearing is focused on treatment based on science, 
and what we can learn from how this virus initially developed, 
what we can learn from looking at the Chinese response. We now 
have a big data set. How did they manage folks? You know, China 
is a communist country, so they were able to do things that we 
can't do as a democratic nation. You know, we respect 
individual rights and individual freedoms here, but there's 
still a lot that we can learn from how they did surveillance, 
et cetera, especially given the breadth of contact tracing that 
we likely are going to have to do based on the community cases 
that we're going to see all across the United States. We won't 
have enough epidemiologists, the CDC (Centers for Disease 
Control and Prevention) won't have enough personnel, so what 
can we learn in how China and Korea--and if you're looking at 
the data that's coming out of Korea now, their aggressive 
approach to testing, and community-based testing. They were 
doing 15,000 tests a day, may have actually mitigated and 
reduced how bad the response could've been. So I think that's 
going to be incredibly important.
     We're also going to look at the science of, you know, how 
is it spread? How efficiently is it spread? You know, how long 
can this virus live as a fomite on inanimate objects? So, you 
know, I think this is an incredibly timely hearing. I think 
this is, you know, this is the Science Committee, so I'm glad 
that we're looking at the science of this, and the science 
basis of treatment, and, again, I appreciate the witnesses that 
are here that are bringing their scientific expertise to help 
us better understand this disease.
     [The prepared statement of Chairman Bera follows:]

    Good morning and welcome to today's hearing on 
Coronaviruses: Understanding the Spread of Infectious Diseases 
and Mobilizing Innovative Solutions. I want to thank Ranking 
Member Lucas, the Members of this Committee, and our witnesses 
for joining us today to discuss the scientific tools and 
research investments we need to better detect, predict, and 
understand the spread of emerging diseases. While the 
Chairwoman is not able to join today, I'm proud to hold the 
gavel and appreciate her strong commitment to public health.
    As a doctor, the former Chief Medical Officer of Sacramento 
County, and a member of the CSIS Commission on Strengthening 
America's Health Security, I have been a strong advocate of 
American leadership in global health. Congress' job is to 
exercise oversight over the federal government's response to 
COVID-19. That is precisely what I have been doing, both as the 
Vice Chair of the Science, Space, and Technology Committee and 
as the Chairman of the Foreign Affairs Subcommittee on Asia, 
the Pacific, and Nonproliferation. In addition to this hearing, 
I have chaired two other Congressional hearings on the 
coronavirus outbreak, sounded the alarm when the White House 
disbanded the office in charge of preparing for pandemics, and 
sought to include funds to combat coronavirus over a month ago 
through other legislation.
    Viruses have caused some of the most dramatic and deadly 
disease outbreaks in human history. Novel viruses of animal 
origin-like SARS and MERS-have been emerging at an alarming 
rate over the last two decades. People are traveling more 
internationally and living in more densely populated areas. We 
are expanding into new geographic areas through deforestation, 
mining, and agricultural land use. Humans are coming into 
closer contact with animal species that are the perfect hosts 
of infectious agents, making it easier for viruses to jump from 
animals to humans.
    Disease outbreaks caused by new viral infections are a 
growing public health concern for the global community, as 
viruses show no respect for national boundaries. The effect of 
COVID-19 on our communities will depend on how the virus 
spreads, the severity with which people get sick, and the 
measures we have available to control its impact. I'd like to 
drive home the point that these questions can all be answered 
by a rapid and robust research response.
    Yet recent outbreaks have highlighted the strengths and 
weaknesses of our research and development response, both 
domestically and internationally. We need additional research 
to expedite the development of diagnostic tests to quickly 
identify those that are sick and push those testing 
capabilities to every state. Not only will this protect our 
public health personnel on the front lines, but it will also 
give them the tools to combat the disease head on.
    Thanks to my role with the Foreign Affairs Committee, I am 
also aware of the importance of social science in guiding our 
response and actively combating the spread of misinformation 
around infectious disease outbreaks. Fear, anxiety, and stigma 
can drive sick people to hide their symptoms to avoid 
discrimination, prevent some individuals from seeking health 
care immediately, and discourage others from adopting healthy 
behaviors. Integrating social scientists into our outbreak 
response helps communities accept and adhere to public health 
measures aimed at limiting the spread of disease.
    Research and development actions are an integral part of 
the response to an outbreak. Scientists are using innovative 
technologies like artificial intelligence to detect and predict 
the spread of disease more effectively. Others are conducting 
research to optimize the use of currently available treatments 
and evaluate candidates for new drugs and vaccines. It is 
apparent now more than ever that our best scientists should be 
leading our response.
    For the last 14 months, this Committee has worked 
tirelessly to ensure that decision-making is driven by science. 
Now is the time to listen and trust science and use it to react 
calmly and smartly to COVID-19. It is critical that we are not 
swayed by misinformation and avoid the stigmatization of 
vulnerable groups.
    This issue has hit close to home. The first reported death 
from COVID-19 in California occurred in Roseville, California, 
which borders my district. Sacramento County is now monitoring 
several potential cases of COVID-19 transmission. The hospital 
where I used to attend in and teach medical students is 
treating a patient with the disease. My heart is with those who 
are currently suffering.
    I continue to believe that the risk to the American people 
is low at this time. But this disease is global in scope and it 
is impacting our communities and our economy. Tackling it will 
require our communities, our government, and our international 
partners working together. With American leadership, we can do 
it. But it will require proper planning, coordination, and 
resourcing. It's not too late.
    I look forward to hearing from our witnesses today on how 
we can best support our nation's scientists as they deploy new 
health technologies and develop scientific information critical 
to controlling and mitigating the effects of emerging 
infectious diseases.
    With that, I will turn it over to the ranking member, Mr. 
Lucas.

     Chairman Bera. With that, the Chair now recognizes the 
Ranking Member, Mr. Lucas, for his opening statement.
     Mr. Lucas. Good morning, and thank you, Dr. Bera, for 
holding this important hearing as we deal with an emerging and 
rapidly evolving situation with the spread of coronavirus, 
COVID-19. According to the Centers for Disease Control at this 
time, most people in the United States have little immediate 
risk of exposure to the virus, however, public health experts 
also advise us a pandemic is likely, so we must gather the 
facts and be prepared. Today I hope our expert witnesses can 
provide important information we can share with our 
constituents. I also hope we can learn what tools are needed to 
detect, predict, and prevent the next pandemic.
     COVID-19 was first identified in Wuhan, China in December 
of 2019. Since then the World Health Organization has reported 
over 90,000 confirmed cases, and over 3,000 deaths spread 
throughout 76 countries. In the United States, the CDC has 
reported at least 152 confirmed cases and 11 deaths. We know 
that for most individuals the illness is not serious, but we're 
still getting information on the death rate. The impact on 
vulnerable populations is particularly concerning, though, and 
my thoughts are with the individuals and families that have 
been affected.
     This is not the first global pandemic in modern times, and 
I'm quite certain it won't be the last. Just over 100 years ago 
the world faced one of the deadliest pandemics in history, the 
1918 avian flu pandemic, also known as the Spanish flu. It 
killed an estimated 50 million people worldwide, including over 
600,000 people in the United States. Since 1980, outbreaks of 
emerging infectious diseases have been occurring with greater 
frequency and have been causing higher numbers of human 
infections than in the past. The vast majority of these 
infections are initially caused by the spread of the disease 
from animals to humans. A SARS (Severe Acute Respiratory 
Syndrome) outbreak in 2003 and an avian flu outbreak in 2006 
were wakeup calls for the American public health system, and 
Congress made considerable investments in improving our 
Nation's capacity to detect and respond to pandemics. We would 
be in a much worse position today without those investments.
     I'm confident that the U.S. Government has the tools 
necessary to deal with this. We have the best scientists in the 
world with NIH (National Institutes of Health), CDC, and in our 
universities. Their work has yielded considerable advancements 
in health technology, disease surveillance, and predictive 
modeling, as well as medicine, drugs, and vaccine development. 
With the integration of technology like artificial intelligence 
(AI), and the greater availability of data, researchers are now 
able to identify and track outbreaks faster. Last Congress, we 
also modernized the Pandemic All-Hazards Preparedness Act to 
set up a framework to deal with precisely this type of 
outbreak. While significant progress has been made, gaps 
remain, and a severe pandemic like the novel coronavirus could 
be devastating to the global population.
     As the human population has grown, so has the livestock, 
swine, and poultry populations needed to feed us. This expanded 
number of hosts provides increased opportunities for viruses 
from birds, cattle, and pigs to spread, evolve, and infect 
people. To better understand how zoonotic diseases like avian 
flu, swine flu, Ebola, Zika, SARS, and now coronavirus spread 
and operate, we must invest in basic research to learn more 
about the interconnection between people, animals, and plants 
in shared environments. Yesterday the House passed a 
supplemental appropriations bill to address the response to 
COVID-19 and the development of a vaccine. I supported the 
bipartisan bill, and I hope my colleagues and I can work 
together on a long-term strategy to prepare for any global 
pandemic we may face in the future. Our top priority is the 
health and welfare of the American people.
     I'm pleased the President has created the Coronavirus Task 
Force. This interagency group is working to monitor, contain, 
and mitigate the spread of the novel coronavirus, while 
ensuring the American people have access to accurate and up-to-
date health and travel information. The best thing Americans 
can do right now is to follow the guidance of CDC. Many of 
their recommendations are simple ones you learned from your 
mother. Wash your hands, wash your hands, do it thoroughly and 
frequently, cover your mouth to cough or sneeze, avoid touching 
your face, stay home if you are sick.
     I want to thank the witnesses for taking the time to come 
here to share their expertise and insights with us during this 
crucial time to help keep Americans safe, healthy, and secure. 
And, with that, I yield back the balance of my time, Mr. 
Chairman.
     [The prepared statement of Mr. Lucas follows:]

    Good morning and thank you Chairwoman Johnson for holding 
this important hearing as we deal with an emerging and rapidly 
evolving situation with the spread of the coronavirus COVID-19.
    According to the Centers for Disease Control (CDC), at this 
time most people in the United States have little immediate 
risk of exposure to the virus. However, public health experts 
also advise us a pandemic is likely, so we must gather the 
facts and be prepared.
    Today I hope our expert witnesses can provide important 
information we can share with our constituents. I also hope we 
can learn what tools are needed to detect, predict, and prevent 
the next pandemic.
    Covid-19 was first identified in Wuhan, China in December 
2019. Since then the World Health Organization has reported 
nearly 90,000 confirmed cases and over 3,000 deaths spread 
throughout 76 countries. In the United States, the CDC has 
reported 152 confirmed cases and 11 deaths. We know that for 
most individuals the illness is not serious, but we are still 
getting information on the death rate. The impact on vulnerable 
populations is particularly concerning though, and my thoughts 
are with the individuals and families that have been affected.
    This is not the first global pandemic in modern times, and 
I am certain it won't be the last. Just over a hundred years 
ago the world faced one of the deadliest pandemics in history - 
the 1918 avian flu pandemic, also known as the "Spanish flu." 
It killed an estimated 50 million people worldwide, including 
over 600,000 people in the United States.
    Since 1980, outbreaks of emerging infectious diseases have 
been occurring with greater frequency and have been causing 
higher numbers of human infections that inthe past. The vast 
majority of these infections are initially caused by the spread 
of disease from animals to humans.
    A SARS outbreak in 2003 and an Avian flu outbreak in 2006 
were wake-up calls for the American public health system, and 
Congress made considerable investments to improve our nation's 
capabilities to detect and respond to pandemics. We would be in 
a much worse position today without those investments.
    I am confident the U.S. government has the tools necessary 
to deal with this. We have the best scientists in the world at 
NIH, CDC, and in our universities. Their work has yielded 
considerable advancements in health technology, disease 
surveillance and predictive modeling, as well as medicine, 
drugs, and vaccine development.
    With the integration of technology like artificial 
intelligence and the greater availability of data, researchers 
are now able to identify and track outbreaks faster. Last 
Congress, we also modernized the Pandemic All-Hazards 
Preparedness Act to set up a framework to deal precisely with 
this type of an outbreak. But while significant progress has 
been made, gaps remain, and a severe pandemic like the novel 
coronavirus could be devastating to the global population.
    As the human population has grown, so has the livestock, 
swine and poultry populations needed to feed us. This expanded 
number of hosts provides increased opportunities for viruses 
from birds, cattle and pigs to spread, evolve, and infect 
people.
    To better understand how zoonotic diseases like avian and 
swine flu, Ebola, Zika, SARS, and now COVID-19 spread and 
operate, we must invest in basic research to learn more about 
the interconnection between people, animals, and plants in 
shared environments.
    Yesterday the House passed a supplemental appropriations 
bill to fund the response to COVID-19 and the development of a 
vaccine. I supported the bipartisan bill. But I hope my 
colleagues and I can work together on a long-term strategy to 
prepare for any global pandemic we may face in the future.
    Our top priority is the health and welfare of the American 
people. I am pleased the President has created the Coronavirus 
Task Force. This interagency group is working to monitor, 
contain, and mitigate the spread of the novel coronavirus while 
ensuring the American people have access to accurate and up-to-
date health and travel information. The best thing Americans 
can do right now is follow the guidance of the CDC. Many of 
their recommendations are simple ones you learned from your 
mother, wash your hands thoroughly and frequently, cover your 
cough or sneeze, avoid touching your face, and stay home if you 
are sick. I want to thank the witnesses for taking the time to 
be here to share your expertise and insights with us during 
this crucial time to help keep Americans safe, healthy, and 
secure. I yield back the balance of my time.

     Chairman Bera. Thank you, Mr. Lucas. If there are members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
     At this time I'd like to introduce our witnesses. First we 
have Dr. Suzan Murray. Dr. Murray is the Program Director of 
the--for the Global Health Program at the Smithsonian's 
National Zoo and Conservation Biology Institute. Next is Dr. 
John Brownstein. Dr. Brownstein is the Chief Innovation Officer 
at Boston Children's Hospital, and a Professor at Harvard 
Medical School. Third I welcome Dr. Peter Hotez, who will be 
introduced by the Chair for the Subcommittee on Energy, Lizzie 
Fletcher of Texas.
     Mrs. Fletcher. Thank you very much, Mr. Chairman. It's 
truly a privilege and a pleasure to introduce an 
internationally recognized physician/scientist in global 
health, neglected tropical diseases, and vaccine development 
who is also my neighbor, and a true leader in our community in 
Houston, Dr. Peter Hotez.
     Dr. Hotez is Professor and Dean at Baylor College of 
Medicine, and Co-Director of Texas Children's Hospital Center 
for Vaccine Development. As head of Texas Children's Center for 
Vaccine Development, he leads a team of product development 
partnership for developing new vaccines for a variety of 
diseases, including other human coronaviruses, like SARS and 
MERS (Middle East Respiratory Syndrome), diseases affecting 
hundreds of millions of children and adults worldwide, while 
championing access to vaccines globally and in the United 
States. Dr. Hotez, welcome. We are glad to have you here today.
     Chairman Bera. And lastly we have Dr. Tara Kirk Sell. Dr. 
Sell is a Senior Scholar at Johns Hopkins Center of Health 
Security, and is an Assistant Professor at Johns Hopkins 
Bloomberg School of Public Health.
     You will each have 5 minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing. When you have completed your spoken testimony, we'll 
begin with questions. Each member will have 5 minutes for 
questioning. Dr. Murray, you may proceed.

          TESTIMONY OF SUZAN MURRAY, PROGRAM DIRECTOR,

               SMITHSONIAN GLOBAL HEALTH PROGRAM,

                   SMITHSONIAN'S NATIONAL ZOO

               AND CONSERVATION BIOLOGY INSTITUTE

     Dr. Murray. Thank you very much. Congressman Bera, Ranking 
Member Lucas, and all Members of the esteemed Committee, thank 
you for calling this hearing, and inviting me to participate. 
My name is Dr. Suzan Murray, and I'm the Director of 
Smithsonian's Global Health Program, based out of the National 
Zoological Park and Conservation Biology Institute. Our program 
utilizes experts in wildlife medicine, human medicine, public 
health, conservation, biology, and epidemiology to study and 
respond to health issues at the human/animal interface. We 
utilize a multidisciplinary approach to investigate emerging 
infectious diseases that threaten both human and animal life, 
and we build in-country capacity to train the next generations 
of health specialists. In short, this is the reason right now 
that our program was created.
     Human health, wildlife, and environmental health are 
inextricably linked, and closely depend upon each other. In 
order to safeguard the survival of all species, it's critical 
that we examine health across a continuum of species, and have 
research and decisions firmly rooted in scientific knowledge. 
Understanding the current viral threats, the patterns and 
drivers of disease emergence, and the human behaviors that 
contribute to such emergence, will best allow us to not only 
respond to this outbreak, but the next one, and the one after 
that, because we do know they're coming. Already we have 
identified many of the drivers of disease emergence and spread, 
including land use change, increased human/wildlife 
interaction, and the globalization of travel and markets.
     Time and history have repeatedly shown us that it is much 
more humane, efficient, and economical to prevent disease 
rather than to identify, respond, diagnose, treat, and attempt 
to contain an outbreak. Through increased understanding of the 
as-yet undiagnosed viruses, the drivers of emergence, and the 
risk factors associated with various behaviors, we can develop 
the early warning systems, prepare for--prepare rapid response 
teams, and provide critical data and information to the vaccine 
industry to better prepare for the next outbreak. Just as 
critical, we must educate local medical professionals, and the 
people living in the communities at the greatest risk of 
outbreaks. By preventing the spread of pathogens at the source, 
we can avoid the global consequences that we are experiencing 
now.
     For example, over the last 10 years, and working with 
partner agencies, our team has collectively identified over 
1,200 novel mammalian viruses. So that's, you know, 1,200 is a 
lot of viruses. It's only a small amount of the ones that are 
out there. One hundred sixty-one of these belong to the same 
family as COVID-19. In this time we also strengthened the 
capability for virus detection and characterization in 60 labs, 
and--in which pandemics are most likely to originate. We've 
also trained over 6,000 people in more than 30 countries at the 
frontline of defense against emerging diseases. At this moment, 
the world is focused on the novel coronavirus, COVID-19, as it 
should be. While it's essential that we do everything we can to 
respond to this global crisis, it's also the time we need to be 
thinking of emerging viruses. The next global pandemic is not a 
matter of if, but when and where. To quickly identify and 
contain such infections, health and disease must be evaluated 
across species, and on a global scale.
     While he might not have imagined it in this context, Ben 
Franklin was right when he said an ounce of prevention is worth 
a pound of cure. When it comes to outbreaks, the costs of 
responding to a crisis can dwarf the up front investment in 
research and education. Beyond a clear moral obligation to 
protect human life, there are staggering financial benefits 
from focusing on preventative measures. For example, the human 
and economic toll from the West African Ebola outbreak was 
massive. More than 11,000 people lost their lives, and well 
over $4 billion was spent globally. In case of the SARS 
epidemic of 2004, the estimated global financial impact was 
between $30 and $50 U.S. billion dollars, and the current COVID 
impact, while still evolving, and a dynamic situation, is 
expected to be on orders of magnitude higher.
     Advancements in the detection of novel pathogens show that 
the most efficient way to respond to and contain an outbreak is 
through the coordinated wildlife and human surveillance. While 
we estimate there are 1.7 as yet unknown viruses, about half of 
which can affect human people, and some lead to new pandemics. 
As of now, there are no coordinated programs to work in high 
risk regions to identify these unknown viruses, get their 
genetic sequences into labs, and identify ways to reduce risk 
of them emerging. Our best defense against spreading diseases 
that make their way into the human population is through 
research and education. While we cannot stop every disease 
outbreak, we can reduce their frequency, and build the capacity 
for a rapid global response when they do occur.
     Thank you once again for this hearing, and your interest 
in this pressing and important topic. I look forward to 
answering any questions you might have.
     [The prepared statement of Dr. Murray follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                  TESTIMONY OF JOHN BROWNSTEIN,

                   CHIEF INNOVATION OFFICER,

                   BOSTON CHILDREN'S HOSPITAL

             AND PROFESSOR, HARVARD MEDICAL SCHOOL

     Dr. Brownstein. Congressman Bera, Ranking Member Lucas, 
and distinguished Members of the U.S.----
     Chairman Bera. Dr. Brownstein, could you turn your mic on?
     Dr. Brownstein. That would help. Congressman Bera, Ranking 
Member Lucas, and distinguished Members of the U.S. House of 
Representatives Committee on Science, Space, and Technology, 
thank you for inviting me today to speak with you. Today I'll 
describe ways that novel technologies like artificial 
intelligence can help detect, monitor, and predict emerging 
infectious diseases. I'll also discuss how non-traditional 
sources can supplement existing epidemiological techniques. But 
as I describe the good news about such advances, I don't want 
to sugarcoat the bad, for the current Federal investments in 
disease surveillance are inadequate and transient. We urgently 
need Federal and local investment in new technologies for 
public health surveillance and response. Such investment will 
augment the capacity of public health to implement new ways to 
monitor the health of populations. It will deepen our 
understanding of community-based morbidity and mortality. It 
will also save lives.
     This is the goal of my team at Boston Children's Hospital, 
where we develop innovative surveillance technology, where we 
use freely online information to provide insights for both 
public health agencies and the general public. We did this for 
the H1N1 influenza pandemic, H7N9, avian influenza, Ebola in 
West Africa, and now COVID-19. These platforms, and our 
research, have ultimately played a critical role in that 
innovative surveillance technologies can help detect, monitor, 
and ultimately mitigate the impact of these diseases.
     Our inaugural project, HealthMap, which is available to 
the public, brings together disparate sources from a variety of 
data streams to help provide a unified view of the world of 
infectious diseases. To do that we use AI, machine learning, 
natural language processing, all to organize that information 
and make it available. Here's an example. On December 30, 2019 
the platform alerted us to an unknown viral pneumonia. That 
turned out to be one of the earliest signals of the current 
COVID-19 outbreak.
     Using AI in modeling of epidemics is one of the areas of 
research offering vast insights into the potential burden of 
disease, and where it spreads. Machine learning models can 
predict where a given virus may arrive next. That lets us 
inform public health organizations about how to respond. 
Predictive modeling can also be used with data like prior 
disease history, weather, travel patterns, laboratory data, 
symptom surveillance. All, together through AI, help us 
exchange information, conduct surveillance, and measure public 
response to the events and response.
     It is also critical to support sentinel surveillance of 
disease. Sentinel surveillance allows public health officials 
to identify signals early, impacts, and disease burden in the 
community. One such example is Flu Near You, which is a 
crowdsourcing platform for symptom surveillance in the U.S. It 
offers two advantages. One, it identifies individuals who may 
be ill, but not seeking medical attention, and it's in real 
time. Our team has now augmented this tool to improve with 
COVID-19 surveillance.
     To date, there is no evidence supporting widespread 
transmission of COVID-19 in the U.S., but does suggest that 
sustained transmission in the community level will be 
occurring. Current global situation suggests that this outbreak 
will become a pandemic. It threatens the people--the health of 
the people of the United States and globally. The COVID-19 
outbreak also demonstrates some reasons for optimism. It 
demonstrates what we can accomplish when the scientific and 
humanitarian disciplines unite around a common goal. We 
understand that each outbreak might require a slightly 
different approach to monitoring response, but there are key 
updates and metrics that we need in every single outbreak. 
There are questions that we must ask, how many new cases are 
there? What is the geographic spread? Are healthcare workers 
infected? We can help answer these questions by using both 
digital disease platforms, along with traditional surveillance. 
We aggregate data from a variety of these sources in real time.
     There's an epidemiological expression that expresses what 
we want, prioritizing sensitivity over specificity. In English 
this means that--risking some false positives to uncover more 
of those who are sick. These platforms do that. They aggregate 
everything available to provide stakeholders with a snapshot of 
the current view of the situation. Those within the realm of 
infectious diseases often say it is not a matter of if, it's a 
matter of when. We continually need support for initiatives to 
make an impact both domestically and globally through 
infectious disease monitoring and surveillance. By investing in 
our neighbors, and promoting health initiatives outside of our 
borders, we help reduce the threat of an outbreak reaching the 
United States.
     There's another essential step to being prepared, long 
term support of the Centers for Disease Control and Prevention, 
and for local Departments of Public Health. The CDC's Influenza 
Surveillance Systems are the backbone of flu surveillance for 
this country. Augmenting this surveillance system with novel 
programs like HealthMap provides us with additional 
information. It allows the public health authorities, 
clinicians, researchers, and the general public to stay alert 
of what's happening. And this is why I urge this Committee to 
make sure the United States provides sustained investment in 
the fundamental needs of disease detection and surveillance. 
That means investments domestically and around the world. Non-
traditional data sources and enhanced data processing through 
AI and machine learning have proven their worth. They support 
traditional surveillance, they aid in the developing of a clear 
path, and a picture of an existing or potential infectious 
disease threat to human health.
     You have shown through your thoughtful leadership on these 
issues in the past, and now we need your help again, for with 
your continued support, we cannot only strengthen the public 
health community, we will protect the lives that we serve. 
Thank you again, and I look forward to your questions.
     [The prepared statement of Dr. Brownstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Bera. Dr. Hotez?

          TESTIMONY OF PETER HOTEZ, PROFESSOR AND DEAN,

             NATIONAL SCHOOL OF TROPICAL MEDICINE,

          BAYLOR COLLEGE OF MEDICINE, AND CO-DIRECTOR,

                TEXAS CHILDREN'S HOSPITAL CENTER

                    FOR VACCINE DEVELOPMENT

     Dr. Hotez. Thank you very much. Dr. Bera, Congress--
Chairman Bera, Ranking Member Lucas, Congresswoman Lizzie 
Fletcher, thank you for that very generous introduction. I'd 
also like to acknowledge my fellow Texan, Congressman Pete 
Olson. It's an honor to be here. I always get thrilled when I 
have the opportunity--I've been doing this for 20 years--to 
address Committees in Congress, and it's still a special thrill 
for me.
     I'm a vaccine scientist, and a pediatric scientist. I was 
previously Chair of Microbiology at George Washington 
University, just down the road, and then a decade ago we moved 
to Texas to create a new--a unique school for emerging and 
neglected tropical diseases, and also to create a unique center 
for vaccine development, and the need was this. There is an 
urgency to create vaccines for diseases which don't make money. 
So we took this on in--with the idea of pioneering not only the 
interesting science, but also a new business model, and the 
business model part we haven't quite figured out yet, because 
we're trying to make diseases--vaccines for diseases no one 
else will make.
     So we have a schistosomiasis vaccine now in clinical 
trials, a leishmaniasis vaccine that we hope will advance to 
the clinic soon, a hookworm vaccine in clinical trials, a new 
Chagas disease vaccine that's moving into the clinic. I like to 
say these are the most important diseases you've never heard 
of. These are some of the most common afflictions of the 
world's population, but they mostly occur among people who live 
in extreme poverty, and so there's no model to figure out who's 
going to pay for them, so, as a consequence, neither the 
biotechs, nor the big pharmaceutical companies, make those 
vaccines. And, for reasons that we'll explore this morning, we 
also took on, a decade ago, the interesting problem of making 
coronavirus vaccines, because we recognize these as enormous 
public health threats, and yet we have not seen the Big Pharma 
guys and the biotechs rushing into this space.
     So we partnered with a group at the New York Blood Center 
and the Galveston National Laboratory to take on the big 
scientific challenge of coronavirus vaccines. And I say a 
scientific challenge because one of the things that we're not 
hearing a lot about is the unique potential safety problem of 
coronavirus vaccines. This was first found in the early 1960s, 
with the respiratory syncytial virus (RSV) vaccines that--and 
it was done here in Washington with the NIH and Children's 
National Medical Center, that some of those kids who got the 
vaccine, actually did worse, and I believe there were two 
deaths as--in the consequence of that study.
     Because what happens with certain types of respiratory 
virus vaccines, you get immunized, and then, when you get 
actually exposed to the virus, you get this kind of paradoxical 
immune enhancement phenomenon. And what--how--and we don't 
entirely understand the basis of it, but we recognize that it's 
a real problem for certain respiratory virus vaccines. That 
killed the RSV program for decades. Now the Gates Foundation is 
taking it up again, but when we started developing coronavirus 
vaccines, and our colleagues, we noticed in laboratory animals 
that they started to show some of the same immune pathology 
that resembled what had happened 50 years earlier, so we said, 
oh, my God, this is going to be problematic.
     But we collaborated with a unique group that figured out 
how to solve the problem, that if you narrow it down to the 
smallest sub-unit, the piece that--of--what's called the 
receptor binding domain, that docks with the receptor, you get 
protection, and you don't get that immune enhancement 
phenomena. So we were really excited about that, and we 
proposed this to the National Institute of Allergy and 
Infectious Diseases (NIAID). They funded it, and we wound up 
actually making and manufacturing, in collaboration with Walter 
Reed Army Institute of Research, a first generation SARS 
vaccine. So SARS was the one that emerged in 2003, and then 
this new one, of course, we call the SARS-2 coronavirus.
     We had it manufactured, but then we could never get the 
investment to take it beyond that. And then--so that was really 
unfortunate, because we had the vaccine ready to go, but we 
couldn't move it into the clinic because of lack of funding, 
because by then nobody was interested in coronavirus vaccines. 
When the Chinese started putting up the data on bioarchive in 
January/February, we saw very close homology between the two, 
and realized that we may be sitting on a very attractive 
coronavirus vaccine. Now we're working with--again with NIH, 
and we'll work with BARDA (Biomedical Advanced Research and 
Development Authority) and others, to get the funding, but now 
we'll have that lag. And these clinical trials are not going to 
go quickly because of that immune enhancement. It's going to 
take time.
     And so, you know, all--unfortunately, some of my 
colleagues in the biotech industry are making these inflated 
claims, you know, you've seen this in the newspapers, we're 
going to have this vaccine in weeks, or--in this and that. What 
they're really saying is they could move a vaccine to clinical 
trials, but this will not go quickly because, as we start 
vaccinating human volunteers, especially in areas where we have 
community transmission, we're going to have to proceed very 
slowly, very cautiously. The FDA (Food and Drug Administration) 
is on top of that. They have a great team in place at the 
Center for Biologics Evaluation Research (CBER). They're aware 
of the problem, but it's not going to go quickly. We are going 
to have to follow this very slowly, cautiously, to make certain 
we're not seeing that immune enhancement.
     So, you know, now we're hearing projections, a year, 18 
months, who knows? This is not going to go quickly. The bottom 
line is, had we had those investments early on to carry this 
all the way through clinical trials years ago, we could've had 
a vaccine ready to go. So we've got to figure out what the 
ecosystem is going to be to develop vaccines that are not going 
to make money. The Big Pharma companies are still not going in, 
some of the biotechs are starting to, because they're trying to 
really accelerate their technology, and use it--and hopefully 
to flip it around for something else that will make money. We 
need a new system in place, and I'm happy to explore that with 
you more during the questions and answers.
     Chairman Bera. Right.
     Dr. Hotez. Thank you.
     [The prepared statement of Dr. Hotez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Bera. Thanks, Dr. Hotez. Dr. Sell?

          TESTIMONY OF TARA KIRK SELL, SENIOR SCHOLAR,

           JOHNS HOPKINS CENTER FOR HEALTH SECURITY,

                    AND ASSISTANT PROFESSOR,

        JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

     Dr. Sell. Good morning, Vice Chairman Bera, Ranking Member 
Lucas, and members of the Committee. Thank you for inviting me 
to speak about my research on crowd forecasting and 
misinformation, this research, in context of COVID-19, and ways 
to support research that improve outbreak response.
     Traditional disease surveillance is critical during 
infectious disease outbreaks, however, this information can be 
supported with tools to help support decisionmaking. One such 
tool is crowd forecasting. Crowd forecasting consolidates the 
diverse opinions of many into hard probabilities for future 
outcomes. This is helpful in engaging the most likely outcome, 
but also for understanding the uncertainty about that outcome.
     Over the past year my research team, in partnership with a 
group called Hypermind, developed a crowdsourced disease 
prediction platform, and asked forecasters to make predictions 
about outbreaks. For instance, we asked about the growth of 
Ebola in the DRC (Democratic Republic of Congo), the spread of 
measles in the United States, and how many U.S. counties might 
see cases of Eastern Equine Encephalitis. On most occasions, 
forecasters provided accurate predictions about 3 weeks ahead 
of time. Recently we focused our forecasting platform on COVID-
19. We asked about the number of countries that would have 
cases of COVID-19, and the number of cases that would be seen 
around the world, and in the U.S. For global cases, forecasts 
showed high confidence that there would be a rapid and 
explosive spread.
     On a few occasions our predictions were incorrect. We 
think this is probably because forecasters didn't have enough 
information to make accurate forecasts. Essentially, there's no 
magic here. If disease surveillance information is lacking, or 
is delayed, forecasters don't have any information to go on. 
This underscores an essential research need for the current 
COVID-19 outbreak, that surveillance, both within the U.S. and 
globally, is essential.
     Another area of my research, misinformation during disease 
outbreaks has emerged as a challenge during the COVID-19 
outbreak, and highlights the need to transparently and rapidly 
share information. Health misinformation can be defined as 
false health-related information, and can range from the 
promotion of fake cures to rumors about the origin of the 
outbreak. Misinformation can substantially impede the 
effectiveness of public health response measures, increase 
societal discord, reduce trust in governments, leaders, and 
responders, and increase stigmatization.
     My team and I analyzed misinformation during the 2014 West 
African Ebola outbreak, one of the most recent examples of a 
fear inducing disease event for the U.S. public. Our--in our 
analysis, we found that about 10 percent of the Ebola related 
tweets had false or half true information. We also saw that 
more tweets with misinformation were political, and seemed 
designed to promote discord. Another finding with parallels to 
COVID-19 was the infection--or the identification of rumors, 
often focused on government conspiracies. Although we have 
been--not been able to do a systematic analysis of COVID-19 
misinformation, we have seen the spread of rapid--of false 
information, including recommendations for false cures that 
could be harmful, like drinking chlorine dioxide, blaming 
specific ethnic groups, and conspiracy theories about various 
governments creating the virus as a bioweapon.
     Response to misinformation requires a nuanced approach, 
and further research to best determine the ways forward. While 
the solutions will be complex, one thing that is critical is 
the prevention of an information void that can be filled with 
false information. Members of the public need accurate and 
timely information to help them make sense of what is happening 
in the outbreak. As I advocated for improved disease 
surveillance earlier, this shows the need for a better 
collection and communication of disease information in a 
transparent and rapid manner.
     From my experience in conducting research in response to 
emergent disease outbreaks, I believe that we need to reduce 
the impediments and disincentives to doing rapid and timely 
research during these events. One hurdle to overcoming--to 
overcome is the slow response--or slow process to establish 
Federal funding streams for research during a response. My 
research was funded by awards from private groups prior to the 
outbreak, which provided the flexibility to shift gears toward 
COVID-19. And while the development of vaccines and 
countermeasures are critical, social, behavioral, and 
epidemiological research are also important. The best treatment 
cannot be effective without knowing where the disease is, and 
who it is affecting. The best vaccine cannot change the course 
of an outbreak if people refuse to take it. And the best public 
health response cannot be implemented if members of the public 
don't cooperate.
     My bottom line message is this, we need to support the 
systematic collection and rapid dissemination of information 
about outbreaks. The--as the issue of misinformation grows, a 
dedicated effort to understanding the best ways to combat it 
will be needed. Even after the COVID-19 outbreak is over, 
emerging outbreaks will still be a continuing concern. The 
Federal research space needs to evolve toward a more rapid 
approach to meet this threat. Thank you.
     [The prepared statement of Dr. Sell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Bera. Thank you, Dr. Sell. Before we proceed, I'd 
like to bring the Committee's attention to a letter that 
Chairwoman Johnson received in preparation for today's hearing, 
letters from Johnson & Johnson (J&J) that highlights their 
global response to the COVID-19 virus. Without objection, I'm 
placing this document, and Chairwoman Johnson's opening 
statement, in the record.
     [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing. We have an 
excellent panel of witnesses today, all experts in their field. 
I look forward to a robust discussion of how science can help 
control and mitigate the effects of emerging infectious 
diseases, especially in light of this recent coronavirus 
outbreak.
    Unfortunately, outbreaks of new infectious diseases are 
happening more often and infecting more people. Changing 
ecosystems, economic development and land use, climate and 
weather, and international travel and commerce are all examples 
of ecological, environmental, and social factors that are 
increasing the emergence and spread of disease. The size of the 
current COVID-19 outbreak has created a public health crisis 
with significant international dimensions. A successful public 
health response relies on science- not only through rapid and 
robust research during an outbreak, but through sustained 
investments in research and development between epidemics.
    As more people interact with technology in their day-to-day 
lives, we have new ways of harnessing data. Scientists are 
developing modeling techniques that use artificial intelligence 
to predict where viruses may emerge and how far they'll spread. 
Policymakers use these programs to inform efforts that seek to 
prevent and control the spread and impact of disease. We also 
rely on scientists to develop diagnostic tests and treatment 
options and evaluate new drugs and vaccines. It is clear how 
our research and development investments directly impact our 
ability to prepare and respond to global emergencies. Every 
decision we make must be rooted in science.
    The outbreak of global viruses is often followed by the 
spread of misinformation, especially about how or where the 
virus originated and the government's response to control it. A 
whole country or group of people may be singled out as the 
source of the problem-rather than the pathogen. This is hardly 
a new phenomenon, but the spread of misinformation during this 
current outbreak has been accelerated by social media. The 
World Health Organization has even labeled this outbreak an 
"infodemic," meaning there is so much information out there 
that it is hard for people to find trustworthy sources and 
reliable guidance when they need it.
    Given that COVID-19 is a new disease, it is understandable 
that its emergence and spread may cause confusion, anxiety, and 
fear. But if we let these emotions guide us, instead of 
science, we will see the rise of harmful stereotypes that will 
prevent people from accessing the health care they need. We 
have already seen reports of public stigmatization against 
people from areas affected by the COVID-19 outbreak. Coupled 
with the health impacts of the virus itself, this is of grave 
concern.
    According to the World Health Organization, recent disease 
outbreaks like SARS, MERS, Ebola, and Zika have highlighted the 
need to use social science to fight deadly disease outbreaks 
and epidemics. Additional investments in social science 
research on combatting misinformation during outbreaks could 
improve prevention and control efforts and strengthen global 
public health communication. We need a holistic research and 
development response now more than ever.
    As the first nurse elected to Congress, I have been 
dedicated to public health my entire career. Our Committee may 
not have jurisdiction over the Health and Human Services 
agencies, but we have long had a role in amplifying the voices 
of our nation's best scientists and bringing them to the 
forefront on an issue. Thousands have been affected by COVID-
19. We do not know how many more will be. We must do everything 
in our power to ensure that science guides our response to this 
outbreak and prepares us for the future.
    Thank you all for being here this morning. And I thank 
Vice-Chair Bera for his leadership on this issue.

     Chairman Bera. At this point we'll begin our first round 
of questions. The Chair recognizes himself for 5 minutes.
     Dr. Hotez, you touched on some of your research into 
developing a coronavirus vaccine and, you know, a SARS vaccine. 
I think it's incredibly important since, you know, Dr. Sell 
just talked about information and misinformation, we've heard 
quite a bit about how quick we're going to get a vaccine, how 
quickly that'll be available to the public. And I think just, 
you know, this morning I woke up to a news alert that said a 
Cambridge, Massachusetts biotech company had come up with a 
vaccine that they've sent to Dr. Fauci to start looking at 
testing and so forth. But I think we've got to be honest with 
the public so we don't give them false hope. And, you know, 
perhaps--if you could just go through a timeline on what 
vaccine development is going to look like in the best case 
scenario, then to clinical trials, and then to potential public 
availability?
     Dr. Hotez. Sure. Thank you for that question. So I think 
what we're going to see over the next few weeks to months is 
several vaccines will enter into a pipeline of clinical trials. 
Hopefully ours will be one of them. You mentioned the Moderna 
vaccine out of MIT (Massachusetts Institute of Technology). 
Theirs will--certainly will be in there. Probably Inovio's 
another one. There's about five or six--J&J may have one as 
well. About five or six, maybe a couple more. But then it's 
going to go into a bottleneck, and that bottleneck are the 
clinical trials, phase one, phase two, phase three trials.
     You know, in spite of what the anti-vaccine lobby likes to 
claim, that vaccines are not adequately tested for safety, in 
fact, among the pharmaceuticals, vaccines are the single most 
tested pharmaceuticals we have for safety, and it takes time. 
And because you have to initially do an injection in normal 
human volunteers, show that it's safe, and then you proceed, 
step-wise, to show that it actually works. And now, because of 
this immune enhancement phenomena, you have the added 
complexity because you want to make certain that those 
volunteers, when they're immunized in an area of community 
transmission, don't actually get worse.
     And so the FDA and CBER--which, again, you know, I can't 
emphasize enough how lucky America is to have that group, some 
of the best public health vaccine scientists in the world--are 
going to follow this very closely, step-wise. And that----
     Chairman Bera. The best case scenario----
     Dr. Hotez [continuing]. And that's not quick, right? 
That's going to take----
     Chairman Bera. Best case scenario, Dr.--and Dr. Fauci said 
at least 12 months.
     Dr. Hotez. And he's definitely right, at least 12 months, 
but whether that means another year after that, maybe 2 years, 
it really depends on the safety signals that we're seeing with 
these vaccines.
     Chairman Bera. OK. And the ability of our commercial 
pharmaceutical sector to quickly ramp up and develop that--the 
vaccine, and make it commercially available, is that going to 
be an issue, or do we have that----
     Dr. Hotez. Yeah, I mean, there's a lot being--there's a 
lot of press releases from the biotechs, and some of them I'm 
not very happy about, frankly, because I think it's telling 
only half the message. You know, there's--so it took us years 
to develop our recombinant protein vaccines. It's an old 
method, but we know it works, because we've had a Hepatitis B 
vaccine licensed with this technology, the HPV (human 
papillomavirus) vaccine licensed with this technology. Now 
you're seeing next generation platform vaccines, like DNA 
(deoxyribonucleic acid) and RNA (ribonucleic acid) vaccines. 
It's a very exciting technology because you can move very 
quickly into clinical trials. The problem is we don't have a 
single licensed vaccine with that technology. So the idea that 
all of a sudden this is going to work, you know, historically, 
these have worked very well in mice and laboratory animals, but 
they haven't been reproduceable in people. Organizations like 
Moderna and Inovia say they've gotten around it now, they've 
fixed the--they've fixed this----
     Chairman Bera. Right.
     Dr. Hotez [continuing]. So maybe they have, but, you know, 
it's----
     Chairman Bera. Right.
     Dr. Hotez [continuing]. Still we don't have----
     Chairman Bera. So we're----
     Dr. Hotez [continuing]. A lot of experience.
     Chairman Bera. We're moving at an incredibly rapid pace 
right now, but the public needs to understand that, at best, 
there may be a vaccine in 12 months, it'll be longer----
     Dr. Hotez. Yeah. I mean----
     Chairman Bera [continuing]. Potentially longer than that.
     Dr. Hotez. I mean, look at what happened with----
     Chairman Bera. Yeah.
     Dr. Hotez. [continuing]. Ebola, right? We had, you know, 
our first Ebola vaccines started being rolled out in 2015 in 
the epidemic in West Africa. It's not really until 2019 that we 
really got it rolling, which, by the way, is one of the most 
extraordinary public health stories ever told.
     Chairman Bera. It absolutely----
     Dr. Hotez [continuing]. And, you know, thanks to BARDA, 
and all these----
     Chairman Bera. Exactly. Let me ask Dr. Sell a question. 
You talked about information and misinformation. Based on your 
research as you're observing this, what are some of the common 
misinformation that is out there on COVID-19?
     Dr. Sell. Yeah, so I think that there's a range of 
different misinformation. So there's misinformation about false 
cures, and there aren't any cures right now, so all that is 
false. There's misinformation about sort of government 
conspiracies, that someone else started the disease, and I 
think there's also misinformation about the disease, you know, 
what characteristics it has. I think there's a lot that we 
don't know, and so there's that information void that people 
are just filling with their ideas.
     Chairman Bera. So it is--it behooves this institution, and 
each--vested Members of Congress to make sure we're in tight 
communication with our constituents back home. With that, let 
me recognize the Ranking Member, Mr. Lucas, for 5 minutes.
     Mr. Lucas. Thank you, Mr. Chairman. And, Dr. Hotez, 
thinking about Dr. Sell's comments, let's begin from the 
parochial perspective, being your neighbor up north in 
Oklahoma. As of last night the State Department of Health 
reports there are no confirmed positive cases of coronavirus in 
Oklahoma, as of yesterday evening, although one Oklahoman 
showing symptoms is waiting on the test results from CDC. Can 
you discuss for a moment what we can share with our 
constituents back home to not instill panic, and how to stress 
the importance of reasonable steps, prevent spread? Yes, 
doctor?
     Dr. Hotez. Peter Hotez. Yeah, I--we--I know Oklahoma 
pretty well. My son graduated from OU, so--just last year as a 
petroleum engineer, so he's--it was a great place. We love 
Norman.
     Mr. Lucas. Absolutely.
     Dr. Hotez. The issue is this, you know, I think, in an 
attempt to calm public fears, you're hearing things like it's a 
mild illness, this is like flu. It's not really the case, 
because this is an unusual virus. For many young people 
especially it is a mild illness, but we're seeing some 
devastating things, and we got a heads up about this from the 
Chinese. They actually informed us, and we knew it was coming. 
Nursing homes, look what this virus did in that nursing home in 
Kirkland, Washington. It rolled through it like a train, right? 
It's at least seven deaths so far in a nursing home of about 
100 people, so this is like the angel of death for older 
individuals.
     We need to go back and support all of our nursing homes--I 
don't know what we're doing wrong, but clearly that nursing 
home was not prepared for this, and I'm going to guess nursing 
home in--across Oklahoma are not prepared as well. Also our 
healthcare providers. We saw in Wuhan 1,000 healthcare 
providers got sick, and we had at least 15 percent severely ill 
and in ICUs (intensive care units), and that is very dangerous 
because not only do you subtract those people out of the 
healthcare workforce, but the demoralizing effect of colleagues 
taking care of colleagues is going to be--I mean, the whole 
thing can fall apart if that starts to happen.
     We saw this with Dallas. So I was on Governor Perry's task 
force for infectious disease, and those two ICU nurses, when 
they got sick, it was really devastating. And finally the 
Governor had to call the Health and Human Services Secretary, 
CDC Director, and said, look, I--normal ICUs can't take care of 
these patients, we've got to get them out of here. So you don't 
want to see those kinds of situations. I'm worried about our 
first responders. We're already seeing in Washington State how 
they're already in quarantine. So does that mean we're going to 
have to bring in the National Guard? I think that's going to be 
another big issue as well. So those are the three 
vulnerabilities that I see right now in a place like Oklahoma.
     Mr. Lucas. And how should our constituents back home react 
to that, the average J.Q. Public out there?
     Dr. Hotez. Well, I think the average J.Q. Public needs to 
hear from its elected leaders, from the Governor, from the 
public health authorities, on what the plan is. I mean, don't 
just get up there and say, this is a flu, this is a mild 
illness. One, it's not true, and people in Oklahoma are pretty 
smart, and they'll figure that out pretty quickly, and second, 
explain what the risks are, these are the three vulnerable 
populations that we have to worry about, and here are the steps 
that we're doing to mitigate that. That's what people will 
appreciate.
     Mr. Lucas. Dr. Murray, as you mentioned in your opening 
statement, approximately 75 percent of emerging infectious 
diseases originate in zoonotic pathogens. You estimate that 1.7 
million unknown viruses yet to be discovered, around half of 
which are capable of infecting people. Could you elaborate on 
the current state of research to improve surveillance in these 
diseases, and where gaps may exist now as we look toward the 
future, about addressing future challenges?
     Dr. Murray. Yes, thank you very much, and I also 
appreciate that, while we're trying our best to address the 
topic at hand of a lot of ill people, we do need to be thinking 
of the next virus, and the next virus. I also think that the 
CDC has done a wonderful job of looking at and studying human 
health, and, if we're going to do our best job to prevent 
future viruses from jumping, I think one of the missing 
components is indeed wildlife health. If 75 percent of the 
viruses come from wildlife, it makes sense that we look at that 
juncture of both wildlife and human health.
     We also--this virus is termed a novel virus, it's new. 
It's new to the people. I don't think it's new to the bats, and 
that's--right? That's an important point. And then some of our 
other colleagues here have been talking about modeling, and how 
important that is. Modeling gives us greater information now as 
to what COVID will be doing within the U.S. and within other 
countries.
     We also have groups of modelers who look at the forefront 
stages, before emergence, and look at the data that we have to 
try and determine where are the hot zones, what are the risk 
factors, and, behaviorally, what are people doing to put 
themselves in danger? Those are really, really important ways 
for us to get ahead of the curve and catch the viruses before 
they come out.
     As part of the team that we've been on, which is a USAID 
(United States Agency for International Development) program 
called Predict, we have a team of modelers who look at viral 
emergence, and they're able to determine for each different 
virus how--as we collect more and more data, what percentage of 
the viruses that we know are characterized, and how many more 
are likely to be out there? Latest estimates are less than 1 
percent--well, the viruses we know are less than 1 percent of 
the viruses that are out there, meaning there's over 99 percent 
viruses in wildlife waiting to jump into humans. That's 
staggering, and that's really one of the things that we need to 
look at.
     Mr. Lucas. Thank you, Mr. Chairman. My time's expired.
     Chairman Bera. The gentlelady from Oregon, Ms. Bonamici, 
is recognized for----
     Ms. Bonamici. Thank you----
     Chairman Bera. [continuing]. 5 minutes.
     Ms. Bonamici. [continuing]. Dr. Bera, and Ranking Member 
Lucas. This emergent coronavirus epidemic is a top concern for 
Oregonians, and I'm glad we're having this hearing today. In 
Oregon we currently have three individuals who have tested 
positive, two of whom are in the district I represent, plus I 
have an additional couple of constituents still in Japan who 
had been on the cruise ship there. We know further community 
transmission is likely. It's clear, from the tragic deaths in 
Washington, how this virus can spread quickly, and cause 
serious harm, and so let's take a moment to reflect on those 
who have lost their lives in our neighboring States of 
Washington, and now we understand there's a reported death in 
California as well, all the affected friends and family of 
those people. We need to take this seriously.
     I also want to recognize the tireless efforts of our 
public health officials in Oregon, and the Pacific Northwest, 
and across the country. I know they've been working around the 
clock to coordinate a response. For the past several days I've 
spoken with our Governor, Kate Brown, and many State and county 
public health officials, and school superintendents--we had a 
school closed in Oregon for a couple of days--healthcare 
providers. And everyone has emphasized the need for robust 
funding, and I'm glad we passed a bill with strong bipartisan 
support in the House here yesterday. I hope they get it over 
the finish line soon in the Senate.
     But I've also heard numerous concerns about the 
availability of protective equipment, particularly masks. Also 
staffing challenges, and testing capability. And we know those 
infected with COVID-19 can remain asymptomatic for several 
weeks, so healthcare professionals, as Dr. Hotez was talking 
about, are at even greater risk. There are furloughed 
healthcare workers in my district.
     The CDC just expanded its guidance for testing, but 
there's still a significant amount of confusion about who 
should get tested, and how those increasing testing 
capabilities can best be used to inform and improve our 
response efforts. And we heard this morning South Korea's 
testing 15,000 people a day. Dr. Brownstein and Dr. Hotez, we 
can't get an accurate picture of the infection if we're not 
testing, but until recently, the testing was limited to those 
who had recently traveled to places with high rates, or those 
showing symptoms after close contact.
     So I understand the process of getting the tests out into 
the field is slow. We had the test sent to the CDC the--on 
Friday, and then it didn't come back until Tuesday, and that's 
really hard for a community that's wondering what's happening. 
So can you explain whether the scope of the CDC's guidance--was 
that based on best practices, or was it inappropriately limited 
because--a lack of capacity to test, and who should be tested? 
Dr. Brownstein and Dr. Hotez?
     Dr. Brownstein. Of course, it's hard to delve too deep 
into what was happening at the CDC at the time, but, of course, 
increasing testing is incredibly important. We know that this 
is a mild condition. Oftentimes people might be feeling 
symptoms, they may not even be interacting with a healthcare 
provider, and so we don't actually know the full scope of 
numbers of cases that are out there. And I think you mentioned 
a really great point about the impact on the health system. We 
are really advocating for opportunities to bring concepts like 
telemedicine, and tools that help at the front line, beyond the 
point where someone actually has to come in and end up in an 
emergency department. There's opportunities to think about 
tools that actually provide symptom checkers that integrate 
data from the CDC, but also have virtual visits with providers. 
This is a real important component, because----
     Ms. Bonamici. Absolutely.
     Dr. Brownstein [continuing]. What we expect is an influx 
of people coming into our health system. I work in a health 
system. We are very nervous about the flooding of our emergency 
departments with potential cases, so the opportunities to bring 
digital tools and innovative solutions, along with the ability 
to integrate with testing--so home based testing, other 
opportunities--are really things that we advocate for because 
of the fact that, again, mild illness, lack of opportunities 
for someone to come and meet with someone live, and for the 
fact that we can actually begin to understand the depth of 
what's happening in the population, again, those kind of data 
points are so critical now to understanding----
     Ms. Bonamici. Absolutely.
     Dr. Brownstein [continuing]. The features of this 
epidemic, and to understand more broadly what's happening in 
the community.
     Ms. Bonamici. Thank you. Dr. Hotez, as I mentioned, the 
test was presumptive on Friday, sent to the CDC, it didn't come 
back until Tuesday. Can you elaborate on some ideas why we've 
seen such delays in testing? Do you think this recent emergency 
use authorization will expedite things, and what else can we do 
to increase the availability and accelerate the testing?
     Dr. Hotez. So four brief points are around that, and thank 
you for that question. I think the first is testing for 
respiratory viruses is not trivial, because you get a--
oftentimes, and we've been seeing this in China, and this is 
actually not unusual, if you look at the literature on testing 
for respiratory viruses, you get a negative result, a negative 
result, a negative result, you put the person on a quarantine, 
all of a sudden they're positive. What does that mean? Is it a 
true false negative, or is it because the test isn't sensitive 
enough? So it takes time to really fine tune these diagnostic 
tests for respiratory viruses.
     And, in fairness to the CDC, testing--developing a new 
diagnostic test, just like developing a vaccine in the middle 
of a public health crisis, developing new technologies for a 
new agent in a public health crisis, one of the hardest things 
that we do as a nation. So this--so--and it' s hard to make 
that go quickly. I understand we could've--we should've done 
better as a country of getting those kits out there.
     I think we will get up to a million eventually, as I 
believe the Vice President mentioned, but until we do that, I 
think we've got to prioritize who gets tested, and my 
recommendation would be that we focus the testing strategically 
around our protecting our three most vulnerable populations 
that I mentioned. Our older residents in nursing homes and 
places of assisted living, they're highly vulnerable. The 
mortality among them is----
     Ms. Bonamici. Right.
     Dr. Hotez. [continuing]. 10 to 15 percent. The healthcare 
providers, those who interact with the healthcare providers, 
and protecting our first responders, because if they go down, 
then, again, everything collapses.
     Ms. Bonamici. OK.
     Dr. Hotez. But then, even after that, I think the other 
thing that not a lot of people are talking about, even then, 
this is not adequate, right? If we have to wait hours, or days, 
for the test result, it's of limited use to us. What we need is 
like what we have now for a rapid flu test. We need to get a 
rapid test for that.
     Ms. Bonamici. Thank you. My time's long expired. I yield 
back.
     Chairman Bera. Thank you. Let me recognize the gentleman 
from Florida, Mr. Posey, for 5 minutes.
     Mr. Posey. Thank you, Mr. Chair, for calling this 
important hearing. I only regret that it conflicts with a 
Member's only briefing on almost the exact same topic taking 
place simultaneously. And thank you, witnesses, for the 
important work that you do every day, thinking about ways to 
combat public health threats. There's a common theme across 
your testimony, and that's pretty much when there's a crisis 
all eyes turn to you, but when the disease or the crisis moves 
off the front pages, the public loses interest, then the 
funding goes away.
     And you didn't say this part, but I'll say this also, that 
when Washington sees a problem, the habit is to throw billions 
of dollars at it and say, look, now we've done our job, and 
hope for a good result, and move on to the next issue. And, of 
course, there's always the finger pointing and blaming, based 
on, as you well pointed out earlier, much information and 
disinformation. That's really regrettable, and I think the 
American people are getting a little tired of that, but Dr. 
Murray, working with partner agencies you state you've 
successfully identified over 1,200 novel wild-born illnesses, 
including 161 of which belong to the same family as COVID-19. I 
think most of us in the room are wondering what the risk to 
humans is from those viruses as well? I have four related 
questions that I'll ask you after----
     Dr. Murray. Thank you very much. I'll try to be quick in 
my response. So in addition to identifying the viruses, we also 
have a team of modelers who helps us identify where to look in 
the world. We also have a team of phylogenists and virology 
experts who then rank all these viruses. If we had enough money 
to look at every country, every species, every animal, we 
would, but we don't, so we really try and use funds 
effectively, so we identify the countries in which--are most 
likely to be a problem, the species that are most likely to 
transmit lethal diseases to humans, primates, bats, and 
rodents, and then, of those 1,200 viruses, they're ranked 
according to the families that are most likely to cause a 
problem for human health, and that's where we spend the 
majority of our time and resources. Influenzas, coronaviruses, 
filoviruses, and paramyxoviruses are some of the most important 
families.
     Just to add on to what my colleagues here have said, it is 
the time from--funds are an issue, and the program that I'm 
describing is just in the process of being closed down. We're 
actually holding our closeout session on March 17 at the Museum 
of American Indian, in case anybody would like to join us, 
because we'll be reporting on a lot of what we've done over the 
last 10 years. My suggestion would be this is not the time to 
lean out, but it'd be the time that we need to be leaning in.
     Mr. Posey. What percentage of the viruses have the 
potential to jump to humans? Just swag it, I mean.
     Dr. Murray. So of the 1.7 as yet unidentified viruses, 
about 50 percent of those have the potential to jump to humans, 
and that's based on the receptor sites, and where they can 
attach to the trachea. Of those--but not all of those are going 
to spread rapidly, and not all of those are going to cause 
severe disease. So we look at--there's 50 percent that could 
jump to humans, and probably only 10 percent or 15 that can 
cause rapid disease and a pandemic. But until we identify those 
viruses, the species in which they occur, the reservoir 
species, and the mode of transmission to humans, we're really 
still at a tremendous risk.
     And then we--the research has shown that these outbreaks 
are coming more and more frequently, so while everybody--a lot 
of us have felt like, this is a surprise, the folks in the 
health community have felt like this isn't a surprise. We've 
been saying it collectively for the last several years, these 
pandemics are coming. We can tell you in general the countries 
or the areas, some of the risk factors, and some of the viral 
families.
     Mr. Posey. Well, you answered my next two questions about 
the percentages already, so, for the final question, how do you 
think we best prioritize research? You know, is there a good 
process to set research priorities in place?
     Dr. Murray. I think a lot of what we're doing right here--
and thank you for this hearing. It does bring everybody--a lot 
of the same folks into the room to help identify some of the 
issues. From my perspective, the more that we can look at 
bringing experts from many different fields, from the 
government, from NGOs (non-governmental organizations), and 
universities together, then that--and the confluence of human 
physicians--well, most physicians are human, right? So human 
physicians, veterinarians, nurse--and nursing staff 
researchers, I think that's really what we need to be doing, 
and looking at not only in the U.S., but in countries--in other 
countries as well, because--we look at the economy globally. 
It's really time for us to look at health globally. So that's 
how I would go about establishing research priorities.
     Mr. Posey. Thank you. That beats crisis du jour.
     Dr. Murray. Thank you for your questions.
     Chairman Bera. Thank you, Mr. Posey. The gentlelady from 
Texas, Mrs. Fletcher, is recognized for 5 minutes.
     Mrs. Fletcher. Thank you, Chairman Bera. I want to get 
right to the questions. I thank all of you for being here, for 
your testimony. It's very important. I want to follow up with 
you, Dr. Hotez, on your opening comments with a question, and 
then open it up to the panel to weigh in with your thoughts. 
But, kind of following up on what Mr. Posey asked as well, in 
your opening comments, or your statement, you mentioned your 
work developing a vaccine for SARS, and you asked the question 
what will the ecosystem be for vaccines that don't make money?
     And that seems to be an appropriate question for this 
Committee, and for the Congress of the United States to be 
tackling. So I would like to ask you what you think that 
ecosystem should look like, and then get others on the panel to 
weigh in on that question, and also touch a little bit on what 
Dr. Murray said about kind of the global nature, and something 
we have discussed before as well, where can we partner with 
other countries in doing this work, and where can we have a 
national response and a global response? I'd love to get your 
thoughts, and then open it up to the panel.
     Dr. Hotez. Well, thank you very much for that question. I 
mean, there is some good news to this. You know, we--we're very 
blessed to have the National Institute of Allergy and 
Infectious Diseases, headed by Dr. Fauci, who's been very 
committed to this problem. And, you know, if it wasn't for 
NIAID and NIH, I wouldn't be--even be here, right? They've, you 
know, really worked hard around trying to fix this problem. The 
issue is it's not enough, and it doesn't--and the problem is, 
you know, if you talk to Tony--if you talk to Dr. Fauci, he'll 
say, look, Peter, I'm not a venture capitalist. I can't just 
hand over money. It's got to go through study sections.
     And the issue is the study sections--some--oftentimes will 
get dinged and get turn down from an NIH grant because what 
we're--they'll claim what we're doing is not innovative, and 
they're often right. It's not innovative. We're trying to make 
a recombinant protein vaccine. It's boring, but it's absolutely 
essential. So we have to figure out a way to--for a funding 
mechanism to be created that will provide steady funding for a 
base of scientists who are ready and able to develop a vaccine, 
because this--we're over-relying on the big pharmaceutical 
companies. They're not coming into this space in a big way, 
with a couple of exceptions. The biotechs, some of them are in 
it. Most of them are in it not so much for the specific 
vaccine, but it's a device to accelerate their technologies. So 
we've got to figure out a mechanism to create a--fund a group 
of scientists working in an area where they'll develop vaccines 
in the non-profit sector.
     We've had Walter Reed Army Institute of Research for 
years. They've been hit very hard. We could restore that. That 
would be one way. We have this great VRC, Vaccine Research 
Center, at the NIH, and there's a couple of others, like ours, 
the University of Maryland Center for Vaccine Development, our 
Baylor College of Medicine, one at Texas Children's, but we 
need--each one has to be bigger, and each one has to be--and we 
need more of them as well.
     Dr. Brownstein. I'll just add also my thanks to the NIH, 
because I also wouldn't be here without support from 
specifically the National Laboratory of Medicine, and their 
efforts to really train the next generation of data scientists 
in health.
     Specifically around--your question around vaccines, I 
think it's really important to think about the comments of Dr. 
Murray and think about the next event, right? Of course we need 
to be focused on the current coronavirus, but we're going to 
see likely another event, another likely coronavirus event. We 
saw SARS, MERS. It's likely that we should be thinking about 
universal vaccines around coronaviruses, as opposed to maybe 
something very specific around this event, that ultimately will 
prepare us for the next pandemic that we'll see in the future. 
I think the more that we can be thinking about those next 
events, and they will occur, the better off we'll be for the 
next one.
     Mrs. Fletcher. Thank you, Dr. Brownstein----
     Dr. Sell. One----
     Mrs. Fletcher. Dr. Sell, you had a----
     Dr. Sell. Yeah, I have one thing to add. So you'd asked 
about the ecosystem for vaccines that don't make money, right? 
We have the difficulties with developing those vaccines, and 
then testing them, but we also--a project at our center led by 
Nancy Connell, we also have a problem with manufacturing those 
vaccines at scale, right? So we might be able to have a 
vaccine, but we can't make, you know, half a billion doses, or 
whatever we need, quickly, in enough time to make a difference. 
And so I think that's another thing, you know, we can't just 
swap over the products in a manufacturing plant. That's another 
area that really needs a lot of attention.
     Mrs. Fletcher. Thank you. Dr. Murray, I have a few--30 
seconds left. I'd love to hear your thoughts.
     Dr. Murray. I agree, again, with my colleagues, in 
particular with Dr. Brownstein, who was saying about the 
universal vaccine. I think it's very well--a very good idea to 
invest in that. And, again, part of the information we would 
collect in the field about what types of vaccines, or what type 
of viruses are out there, will hopefully help inform that. I 
also wanted to add on just--I thought a little bit more about 
the question from Mr. Posey, and I do think that if we're going 
to be looking at research, creating a one health program 
somewhere that we're--because we don't currently have a program 
that works in high risk areas that incorporates both human 
expertise and wildlife expertise, and ideally has one foot in 
the Federal Government, and one foot outside of the Federal 
Government. It would be great if such an institution were here 
somewhere in D.C., and perhaps a parastatal institution 
that's--already exists.
     Mrs. Fletcher. Thank you very much. I have gone over my 
time, so I will yield back.
     Chairman Bera. Thank you----
     Mrs. Fletcher. Thank you all.
     Chairman Bera. [continuing]. Mrs. Fletcher. The gentleman 
from Texas, Mr. Cloud, is recognized for 5 minutes.
     Mr. Cloud. Thank you, Chairman, and thank you all for 
being here to help us address this very important topic. I 
appreciate the healthy discussion over some of the 
misinformation that's come out sometimes with, you know, 
political goals in the dispersion of it. I also appreciate you 
educating us just really on some of the real scientific 
challenges in addressing a situation like this.
     I wanted to see, Dr. Murray, in the effort of giving good 
communication on this, if you can give us, kind of 
backtracking, it was kind of an understanding of why are doing 
this, where did this coronavirus come from, how is it unique, 
how is it spreading?
     Dr. Murray. Thank you very much. I'd be happy to do--and I 
think I could probably share the answer to that question as 
well. In terms of what we know, or--that bats, primates, and 
rodents are the species that are most likely to carry these 
viruses that transmit to humans, and--the coronas in 
particular, and our team has already discovered a--several 
other coronaviruses in China, with 98--97 and 98 percent 
homology to this virus, meaning--so they're very closely 
related. And we also developed these trees so you can determine 
how closely this virus is related to the other coronas. We 
found some in Myanmar that are not closely related, and not 
likely to cause disease.
     So--and we also have behaviorists looking at what are the 
risks associated with bats? In a lot of countries bats provide 
a lot of protein, and people do eat bats. But, if you think 
through it, the risk might not be the person in a restaurant 
eating a fully cooked bat. Perhaps the risk is the women in the 
back who are preparing the bat without the gloves, and without 
the masks, that are--along with children, and then take it 
home. So trying to understand the cultural norms and human 
behavior patterns that give--that contribute to these sorts of 
things.
     A quick shoutout to OSTP (Office of Science and Technology 
Policy) from--because we also have a pandemic preparedness 
forecasting science and technology panel that looks at these 
sorts of things, and collectively this past year we--at 
Smithsonian we housed a--or a we hosted a 2 day workshop 
looking at the--bringing together the soft sciences and the 
hard sciences, the modelers who look at human behavior, and 
also the hard scientists that look at what the virus does.
     So we believe that these--that markets--wildlife markets 
and the wildlife trade are a really huge risk in general, and 
the risks are different whether you're in Africa or Asia. 
Africa, animals tend to come to the market. The risk is more in 
bush meat trade for the folks who are there in the forests that 
are killing the animals, and the meat tends to come to the 
market already dead, whereas in Asia it's often live animals 
that are at the market. So those are--to answer some of your 
questions about the virus, we believe that it's a bat related 
virus, and that it's--it came in close contact through this--
the markets.
     We still have so much more to learn about this virus in 
particular, and these--with epidemiologists, and our human 
health folks as well, and so--there's still so much we don't 
know, but that's what we know so far. I'd like to yield to any 
of our M.D. colleagues to see if they have something to add.
     Mr. Cloud. Well, if I may, I only have two minutes left. 
Dr.----
     Dr. Murray. Sorry.
     Mr. Cloud. [continuing]. Hotez, if you can tell us what's 
some of the challenges in addressing these treatments and 
vaccine, also, I'm just going to get all the questions out 
here. Based on your experience working with SARS, and Ebola, 
and Zika, what are some of the challenges that you've seen 
governments face in the past, what are some of the best 
practices we've learned, and what's some of the things that we 
can use toward addressing this? And then if you can answer 
that, and if any of you want to jump in and finish the time 
out?
     Dr. Hotez. Yeah, two points. We need more vaccines, and 
trying to do this in the middle of a crisis is very difficult, 
right? I mean, we have one--N of one, the--what--the story with 
Ebola, maybe cholera vaccines in Yemen, so we want to start 
doing this now. And one of the other problems that I'm seeing 
is, you know, through NIAID and BARDA, we have incredible 
mechanism for supporting vaccines, so clearly the U.S. is the 
global leader in this. We need some of the other countries to 
start pitching in and help supporting global health 
technologies.
     If you look at the funding--public funding globally, you 
know, the U.S. is by far the No. 1, UK maybe second, the 
European Union, and then the bottom falls out, so we see a lot 
of underachievement among the G20 countries. China's doing very 
little. Japan, not much, a little bit. Korea's starting now. 
I'm on a board called the Korean Right Fund with the Gates 
Foundation. Brazil needs to step up. You know, all the BRICS 
(Brazil, Russia, India, China and South Africa) countries need 
to step up. So the--we really need to put this on the agenda of 
a G20 summit to say, look, the U.S., you know, has, you know, 
globally taken the lead on recognizing this is a huge problem 
through NAID and BARDA, the other countries need to step up. 
This needs to be on the topic of a G20 summit.
     I have a book--I like to write books, so one of the books 
I wrote is called Blue Marble Health, which actually finds this 
quite interesting finding. Overwhelmingly, most of the world's 
emerging and poverty-related neglected diseases are not 
necessarily in the poorest, most devastated countries of 
Africa. It's the G20 countries. It's the poor living among the 
wealthy, including 12 million Americans that suffer from 
neglected tropical diseases. So we need the other G20 to show 
some leadership, and work with State Department and others on 
this.
     Chairman Bera. Thank you, Dr. Hotez. The gentleman from 
California, Mr. McNerney, is recognized for 5 minutes.
     Mr. McNerney. Well, I thank the Chairman, and I thank the 
witnesses this morning. Very useful, informative. Dr. Sell, how 
can social science aid us in understanding how to stop 
misinformation during outbreaks?
     Dr. Sell. So misinformation during outbreaks is a big 
problem, and I think it's a very complex problem. So social 
science could help us understand what the best messages are to 
help people understand when the rumors they're seeing are 
false. So, to improve our messaging, the type of ways we're 
trying to communicate with people, how to convince them of, you 
know, the facts, rather than to believe in these rumors.
     But I also think that there's a--we need to actually 
develop an entire strategy here. We need to think about all the 
different stakeholders, right? We have tech companies, they 
need to be doing work. We have the public. The public--we can't 
just say the public--the public should--we think the public 
should figure out how to determine truth from falsehoods. But 
we also have government, we have news media, and we have public 
health. We all need to think about those stakeholders, and 
everything they can do to deal with this problem.
     Mr. McNerney. Is there a specific area of research that 
would help develop those tools?
     Dr. Sell. I mean, I think that looking into seeing what 
misinformation is out there, and then also the communications 
research that I do. I think that it's looking at what kind of 
ways we can solve that, and the messages that are necessary, so 
that's social science research.
     Mr. McNerney. OK. Thank you. Dr. Hotez, I'm going to 
follow up on Ms. Fletcher's question. How do we incentivize 
pharma and biotechs to prioritize vaccine development?
     Dr. Hotez. Well, it's tough, and, you know, I know I've 
been critical of the big pharmaceutical companies today, but I 
also have some great--some support as well. I mean, you know, 
what Merck did--Merck and Company did for the Ebola vaccine is 
an extraordinary story, right? I mean, this--that vaccine 
ultimately--giving it to 200,000 people in DR Congo in the 
middle of a war and conflict prevented a catastrophic epidemic 
that would've dwarfed the one in West Africa, and would've 
destabilized the entire African continent. So we owe a real 
debt of gratitude to Merck, and BARDA, and the supporters that 
made that happen.
     But if you talk to some of the people at Merck offline, 
one of the things they'll tell me is, look we didn't make--
Peter, we didn't make money on this thing, we actually--in 
some--depending on how you crunch the numbers, we actually 
might have lost money because we had to pull people from 
moneymaking projects in order to put them on this, so it's 
really a problem. You know, vaccines are expensive, and they're 
expensive because of all the quality control and quality 
assurance that you have to put in, and all the belts and 
suspenders you put in to ensure safety.
     So I, you know, and I'm, you know, and that's maybe one of 
the reasons why we're not seeing the big pharmaceutical 
companies jump in this time around, because they saw, my God, 
look what Merck had to do in order to make this happen. So I 
think we have to look at creating a new type of organization, 
and maybe working this out in the nonprofit sector here in the 
United States.
     Mr. McNerney. Thank you. Dr. Brownstein, I'm pretty 
excited about the HealthMap platform that you discussed. How is 
artificial intelligence used in public health preparedness----
     Dr. Brownstein. Yeah. So----
     Mr. McNerney [continuing]. To prevent spreads?
     Dr. Brownstein. So AI is seeing a real explosion in use in 
healthcare. Of course we've seen advancements in other domains, 
financial services, entertainment, but of--what we see is 
there's opportunities in leveraging AI with large datasets. 
When we're dealing with an important event like a public health 
crisis, there's a huge amount of data, a lot of information 
about cases, a lot of misinformation, and being able to sort 
through all that critical data to get important insights that 
we can feed to our modelers, our policymakers, even the public, 
that's where this kind of--these kind of methodologies come 
into play.
     So, if you think about the earliest signs of the COVID-19 
event, they are actually through this epidemic intelligence 
collecting tools, actually some that support the technologies 
that Dr. Murray was talking about. Combing through the web, 
looking for signs of mysterious illnesses that we could utilize 
to then pinpoint, and then communicate those to the World 
Health Organization, and CDC, and other organizations. But more 
importantly, there's a vast amount of information globally now 
being transmitted about cases confirmed, suspected, on trying 
to understand the response, the recovery, the demographic data 
of these patients. That is well more capacity than the existing 
workforce of epidemiologists that exist on this planet, and so 
what we're trying to do is augment the work of these public 
health practitioners through the opportunities that AI brings. 
So the opportunity to mine that information, organize it, and 
bring the situational awareness data to the forefront so it can 
be used effectively.
     Mr. McNerney. OK. I'm running out of time, so I'm going to 
ask you for the record, not a verbal response, what the 
challenges are in expanding AI into this field. So I yield 
back.
     Chairman Bera. Thanks. The gentleman from Texas, Mr. 
Olson, is recognized for 5 minutes.
     Mr. Olson. I thank the Chair, and welcome to our four 
expert witnesses. A special welcome to Dr. Peter Hotez. I'd 
like to join my Texas colleague, Mrs. Fletcher, in bragging 
about Dr. Hotez. My colleagues need to know this is not just a 
man who's an expert in Texas. He's a recognized expert in all 
of America, and globally on pandemic viruses. And that's why 
you saw him all day yesterday on national cable, explaining the 
challenges with the COVID-19 virus. You also saw him doing that 
with the Ebola, with SARS, with H1N1, and also with Zika. H1N1 
was very special back home. That broke out in 2009, and your 
institution, Texas Children's Hospital, set up a drive-through 
vaccine in a parking garage almost overnight to have those 
vaccines deployed. So, again, thank you for being here. As Bum 
Phillips would say, you may not be in a class by yourself, but 
every class you're in, it don't take long to call the roll. I 
want to talk about----
     Dr. Hotez. Thank you, Congressman.
     Mr. Olson [continuing]. Quality treatments and future 
responses. First, quality treatments. Yesterday it was 
announced that my home county of Fort Bend was the first site 
in Texas to have a confirmed case of the COVID-19 virus. Don't 
know too much. The man was 70 years old, he had traveled 
overseas, no confirmation if he went to China, Iran, or Italy, 
and he's now quarantined in the local hospital. As Dr. Sell 
mentioned, a lot of people right now are living in fear that 
this disease is among the people of my hometown, and those 
fears may cause people to do something that's not very wise, 
and sometimes very foolish.
     We've seen photos all across this country of towns 
reacting to this influenza. We've seen empty shelves of grocery 
stores. We've seen empty shelves of bleach. As you said, Dr. 
Sell, people think drinking bleach can somehow help control 
this virus, which is just crazy. We've seen empty shelves of 
canned foods. We see at the Home Depots, the Lowe's, all the 
masks and stuff needed to protect people are getting swarmed up 
by people who don't need them. And, Dr. Hotez, you brought this 
up yesterday on national TV, how can we make sure the required 
resources we have to fight back are given to the top 
priorities, which I think as you mentioned, are probably, first 
all, the families, the victim, their neighbors, the first 
responders, the EMS (emergency medical services) vehicles, the 
cops, the firefighters, and also the doctors and nurses--how 
can we make sure those people have the first priority to get 
these scarce resources?
     Dr. Hotez. So you've hit on it, right? I mean, that's 
exactly right, and thank you for those really generous 
comments. We need to give our one, two, three, four top 
priorities of the groups that we're going to insure, because if 
they go down, then everything falls apart, and things go badly 
very quickly. And I don't know that we've really done that yet, 
so, I think, you know protecting our older individuals in 
nursing homes, because if--because we're--we now know, from 
Kirkland, anytime a virus hits a community, those are the ones 
who are going to get hit the hardest, and the healthcare 
providers, and others.
     The other thing I've been saying is--regarding panic has 
been, look, you will have time. It's not like you're going to 
wake up tomorrow morning and find that the entire Eastern half 
of the United States is infected. What we're going to see is 
multiple communities being affected, and that will cause a lot 
of concern, but you will have time in order to prepare and 
figure out what's happening. And we don't exactly know. It may 
stop there. You know, there are some who believe there may be 
seasonality to this virus. We don't know that at all, because 
it's a new agent. So I think it's--the key is to stay in--our 
leaders need to stay in contact with the people, hold those 
White House briefings on a pretty regular basis, but also try 
not to sugarcoat, right? To be--it's a real art to be able to 
give difficult information, but to do it in a way to say, we're 
aware of it, here's what we're doing about it. And I think, you 
know, we've been through this before.
     You know, one of the things that I've noticed in the 20 
years that I've been following pandemics, it started with 
anthrax in 2001, and then SARS in 2003, H1N1 2009, as you 
pointed out, Ebola 2014, and then we go to Zika, and now this, 
the same thing happens every time. It takes us a little bit of 
time to get our arms around it. There are always stumbles in 
the beginning, and a lot of that has to do with the Federal 
Government and the State governments have to figure out all 
over again how to work together, so there always seems to be 
that new relationship building that has to happen. And then 
eventually we get it right, and this will happen again.
     So--and that's, I think, the other thing that we want to 
see is the press not piling on too much when these things 
happen.
     Mr. Olson. Good luck with that.
     Dr. Hotez. Yeah, and--well, especially it's occurring 
right during the Democratic--it's, you know, it's happening in 
the worst time possible from that sense. And to have that 
perspective of time, saying, look, this always happens, I mean, 
it's the hardest----
     Chairman Bera. Thank you, Doctor.
     Dr. Hotez [continuing]. Thing our country does.
     Chairman Bera. Thank you, Doctor.
     Mr. Olson. Yeah, I hear the gavel banging. I have some 
questions for the record on stockpiling vaccines. Thank you 
very much.
     Chairman Bera. Let me recognize the gentleman from 
Illinois, Mr. Casten.
     Mr. Casten. Thank you, and thank you all for coming. I 
want to follow, if I could, a little bit on the questions Dr. 
Bera asked at the start about vaccine development. Dr. Hotez, 
thank you for clarifying that we're not going to have this 
vaccine for a year or so. Can you just share a little bit some 
of the risks of bringing the vaccine to market too early?
     Dr. Hotez. Thank you for that. Yes, well, the risk is 
compromising safety. This, you know, the--remember what we're 
doing, we're going to be doing. We're going to be immunizing 
healthy people, right, so vaccines always have a higher safety 
bar because you're injecting well people. These are often not 
individuals who are ill, and you're trying to accelerate some 
technology for compassionate use. So--and our FDA, our CBER, 
has one of the best track records in the world in ensuring 
safety, and we have one of the best monitoring systems in the 
world ensuring safety. I mean, we have these four systems in 
place, the vaccine events, adverse reporting system, we have--
but--and many times people think that's the only thing we have. 
We have a redundant system of four tracks that follow this. So 
we know how to do this.
     We know how to ensure that vaccines could be developed and 
tested safely. Don't try to pressure FDA, CBER, into doing 
something that breaks with that, because, you know, if we start 
rolling out a vaccine too quickly, and it's shown that a number 
of those individuals are getting worse because of this vaccine, 
which we know can happen with certain respiratory virus 
vaccines. We've seen it with RSV, we've seen it with--in 
laboratory animals with other coronavirus vaccines, then people 
will lose confidence, and not only confidence in coronavirus 
vaccines, but our whole vaccines----
     Mr. Casten. Sure.
     Dr. Hotez [continuing]. And safety network----
     Mr. Casten. So----
     Dr. Hotez [continuing]. So----
     Mr. Casten. So with a, you know, with an unvaccinated 
population, given that some of the early data, you know, is--
seems to suggest that those who are most at risk are those--the 
elderly, immunocompromised, we're not going to have a----
     Dr. Hotez. And healthcare workers.
     Mr. Casten. Yeah. So we're not going to have a vaccinated 
population. Presumably other complications that people have may 
be at risk. As you look through sort of our broader healthcare 
ecosystem, do you see other medications that we may be where, 
you know, where increasing focus on some of these non-
coronavirus drugs may be the thing that is ultimately going to 
hurt people? Are there other places we should be looking in the 
ecosystem right now?
     Dr. Hotez. Well, remember, vaccines are the highest bar 
there is, so even though that's going to take, you know, 
whatever time it is, there are other technologies out there 
that we could be--that'll get deployed more quickly. I think 
we'll probably have antiviral----
     Mr. Casten. Just----
     Dr. Hotez [continuing]. Drugs a little----
     Mr. Casten. Sorry, I don't--I'm asking a sort of different 
question, and maybe it's my own lack of knowledge. If I 
already--let's say, as an example, I'm taking 
immunosuppressants because I just had a liver transplant----
     Dr. Hotez. Um-hum.
     Mr. Casten [continuing]. The--and all of a sudden I come 
down with coronavirus, I may not--coronavirus may not be the 
thing that does me in, but this other thing does. So if we look 
at the populations that are most at risk from getting a bad 
flu, are there other sort of drugs and pharmacologicals that 
that community is disproportionately taking that we should be 
concerned about, or maybe a little focus there might protect 
some of these folks?
     Dr. Hotez. I don't know--I'll have to think about that a 
little bit more, but you're right. I mean, I think, you know, 
we don't have--remember, this is a new virus agent, and there 
are differences in the U.S. and the Chinese population. We 
haven't seen a lot of data of people with immunosuppressive 
drugs, so----
     Mr. Casten. OK.
     Dr. Hotez [continuing]. I don't think we really know what 
that----
     Mr. Casten. Yeah, I just used that as an example. I----
     Dr. Hotez. So people on Humira, and--I don't----
     Mr. Casten. Yeah. My concern is just all these people who 
might be needing insulin, might be needing statins, other 
things. Shifting with the little bit of time I have left, Dr. 
Sell, I appreciate your comments on not spreading 
misinformation, and just, with the little time we have left, 
all of us going to be back in our districts next week. We all 
have, you know, certain platforms that we can speak to. Given 
what you researched on Ebola, and without, you know, making 
this a political conversation, as you look at what's going on 
right now, are there specific pieces of misinformation that 
trouble you, and if you were in our shoes, what would you love 
to see us saying to the country this weekend?
     Dr. Sell. You bring up something that's very important, 
because influencers, like you, have the--one of the biggest 
roles in spreading the truth about the disease. That's actually 
borne out by the research. So I think, when you go home to your 
constituents this weekend, I think people might be afraid, and 
I think this is a concerning disease. We can't sugarcoat it. We 
have to say, this is serious, we need to think of it, and think 
about the ways that we can prepare.
     People--research has shown that people really want to know 
more about the actions that they can take, rather than the 
risks that they have to worry about. So, you know, the CDC has 
a lot of advice out there, wash your hands, use respiratory 
etiquette. I think people also want to think about how they can 
be prepared, how they might take care of a loved one, if a 
loved one is sick, but not serious enough to be in the 
hospital, to--and we're limiting how many people we're trying 
to take care of in hospitals, to how we might care for sick 
people at home, and think about, you know, stockpiling 
prescription meds, and things that you might need, and you 
don't want to be at the store when there's, you know, a lot of 
sick people or whatever. I think that actions are really what 
people need to hear right now.
     Mr. Casten. Thank you. I yield back.
     Chairman Bera. The gentleman from Ohio, Mr. Gonzalez, is 
recognized for 5 minutes.
     Mr. Gonzalez. Thank you, Mr. Chairman, and thank you, for 
our witnesses. Dr. Hotez, you have a great background. I'm 
going to sing Dr. Sell's praises for a moment. It's not every 
day that we get an Olympic athlete in our midst, especially one 
that had a world record at one point. Do you still have it, by 
the way?
     Dr. Sell. No. Someone took it a----
     Mr. Gonzalez. Someone--OK.
     Dr. Sell [continuing]. Years ago.
     Mr. Gonzalez. Still unbelievably impressive. I don't think 
any of us have world records in our history. Could be wrong. 
Certainly for nothing as impressive as what you did. But of all 
the accomplishments and things I respect most about Dr. Sell, 
it's the fact that she has my wife's unyielding admiration and 
appreciation, that means the most to me, as a college teammate 
of yours.
     So I want to start by asking about the role that 
diagnostics play in forecasting accuracy. I just left a 
briefing, where it's very obvious that we did not, and still 
probably do not, have the number of diagnostics available, with 
respect to coronavirus today. So, when it comes to your 
forecasting accuracy, what role does having robust diagnostics 
play in the process?
     Dr. Sell. Well, that's a great question--and thank you 
very much for the introduction. Diagnostics have an incredible 
role to play because the way that you look for information out 
there about the disease determines what you'll find, right? So 
if you're only looking for people who have a travel history, 
you're never going to say, we have community transmission, 
because every case you find will have a travel history. And so 
I think that being able to use rapid diagnostics, like the flu 
test, or these other things, is really important so that we can 
note those more mild cases, and we know the range of disease, 
and where it is.
     Mr. Gonzalez. Great.
     Dr. Brownstein. From a modeling perspective----
     Mr. Gonzalez. Yeah.
     Dr. Brownstein [continuing]. Having an accurate 
understanding of what's happening in the community is 
incredibly important, right? Because we're essentially seeing 
some of the more severe cases. It might lead to overestimates 
of case fatality. We don't actually know what's happening at 
the community level because we don't have the testing. So we're 
going to essentially be biased in our understanding of disease, 
and not actually have a direct understanding of things like 
household transmission, what we're seeing in terms of the level 
of spread that's happening. So this is why having enough 
diagnostic capacity to do it at a population scale is so 
critical, and why we see incredible advances in Korea and other 
places.
     Mr. Gonzalez. Yeah. And I think that, you know, one of the 
things that is troubling for a lot of folks, certainly for me, 
is you see different case fatality rates depending on the 
country, right? And my estimation of that is because we don't 
know the N, and everybody's using a disparate, you know, South 
Korea they're testing all the time. It seems almost like drive-
through test kits, whereas here it's unclear to me how many 
people we've actually tested. I don't think it's north of 
1,000. I could be wrong on that. So that's been a little 
troubling.
     I guess follow up question on the model piece, if we had 
been testing on the order of, say, South Korea, how much 
further along do you think we would be, and how much closer to 
being able to more effectively prepare and prevent a major 
outbreak would we be if we had the better testing capabilities? 
I'll start with Dr. Sell.
     Dr. Sell. I'll be quick, so the others can answer, but I 
think if we had better testing capabilities, I think we would 
have had the motivation to get moving a little bit quicker.
     Mr. Gonzalez. Yeah.
     Dr. Sell. And--especially in places where we might see 
disease so that we could keep it out of those nursing homes and 
hospitals. So I think that's--would've been helpful.
     Mr. Gonzalez. Great. Dr. Brownstein.
     Dr. Brownstein. Yeah, exactly the same thing. The more 
detailed information we have on the ground, the better off we 
are to respond. Models are only as good as the data that we 
feed them, of course, and so, if we have richer information 
about what's happening, we have that testing, we can understand 
what is happening at the community level, and think about 
things like social isolation, and other mitigation efforts that 
could slow the spread of the coronavirus.
     Mr. Gonzalez. Thank you. And then, with my final minute, 
Dr. Sell, I want to go back to the question that Mr. Casten was 
asking, with respect to false information. Obviously, since 
2014 and Ebola, the platforms that we use, the way we 
communicate, has changed quite a bit. Have you noticed a stark 
difference of any kind between how misinformation was spread in 
2014 versus how it's spread today? What sort of lessons can we 
learn from that?
     Dr. Sell. This is an opinion without an analysis behind 
it, but I think that the spread of misinformation has been much 
more rapid. We know that in some cases it's been coordinated, 
and I think that it spreads across multiple platforms very 
quickly. We have these echo chambers, and we had echo chambers 
in 2014, but this information just bounces within people who 
have the same belief systems, and so it's very hard to change 
that.
     Mr. Gonzalez. OK. Thank you, and I yield back.
     Chairman Bera. The gentleman from Illinois, Mr. Foster, is 
recognized for 5 minutes.
     Mr. Foster. Thank you, Mr. Chairman, and to our witnesses. 
I've been sitting here trying to synthesize from your testimony 
what a coherent plan to actually, you know, do something over 
the next decades that would really move the ball on this, and 
so the first step, it seems to me, is to actually characterize 
the up to 1.7 million potentially transmissionable viruses, and 
I think there may be hope for developing technology so we can 
see the sort of, you know, 1.7 million sounds like a big 
number, but with technology development you might be able to 
bring the cost down. And then to potentially do things to 
mitigate transmission from the animal reservoirs. And, you 
know, there are things like gene drives, and other things. They 
just did--they're talking about releasing mosquitoes that can't 
transmit certain--that sort of approach might be important.
     And secondly, to simply identify the concerned sequences 
across broad classes of these. There was an example of this, 
actually, in my district, Argonne National Labs, where they 
recently solved a protein called NSP-15, which is conservative 
on coronaviruses. It is apparently involved in the replication 
of the virus as a very attractive drug target that--actually do 
something that would sort of persist over a time longer than 
Congress's Attention Deficit Disorder to actually, you know, 
stay focused on a handful of attractive targets, or a large 
number of attractive targets, and develop these for drugs, you 
know, both as treatments and vaccines.
     And here I perceive there's a real difference, that you 
can potentially do things quickly for treatments, but the 
vaccine problem is much tougher because of the clinical trial 
bottleneck. I don't know if there are any great breakthrough 
ideas to--so that if you have thousands of potential viruses, 
and everything about them understood, but you haven't done the 
clinical trials on--and you identified targets, but you still 
need clinical trials, are there any ways to accelerate that, or 
any potential technologies out there? I--that seems like an 
unsolved problem, from your testimonies.
     And then, fourth, developing high volume, general purpose 
manufacturing that's on standby, which is something Dr. Sell 
mentioned. This seems like it's something where you can throw 
money at the problem. You know, if there are really general 
purpose technologies out there, and we, you know, there's a lot 
of overlap with this--frankly, with money we're spending on 
bioterror defense, and it may be that it's the exact same 
equipment that you need.
     And so I'd be interested in--well, first off, have I 
missed any big parts of this? Are there significant things--I 
think the rapid detection is something you mentioned that's 
sort of a parallel track from this.
     Dr. Brownstein. If I may add just one other component to 
this, which is this idea of a national or international service 
around disease forecasting, right? We've done this for the 
weather, right, like a national service for weather, where we 
collect data from NOAA and make predictions. That does not 
exist today in disease forecasting, and if there was 
investments to be made in addition to important pipelines 
around manufacturing, it would be developing a way to predict 
the--sort of the next coronavirus-like pandemic.
     Mr. Foster. Yes, Dr. Hotez?
     Dr. Hotez. Yeah. I think you pointed out a very good 
bottleneck, that, you know, that clinical testing does take 
time. There has been a lot of effort to apply innovation toward 
streamlining clinical safety testing. Sometimes we call it 
systems vaccinology. The idea is we can do more things in 
parallel, rather than sequentially. And, in fact, that was 
already started with the Ebola vaccine in DR Congo. We did a 
lot of things in parallel, so it really went through and got--
we got information on its efficacy and its safety in record 
time.
     And I think, if it wasn't for this particular safety 
signal around this immune enhancement problem, we may--we might 
have broken a record, because there is an appetite to figure 
out how to streamline vaccine safety testing, it's just that 
there's just--unique, quirky feature about coronavirus 
vaccines, and some other respiratory virus vaccines. So I think 
you will see innovation and streamlining clinical trials, I'm 
just not sure this is the one to do it with.
     Dr. Sell. I had one other addition. I think that, you 
know, we--when we come up with these tools, they're 
interesting, and the exist out there, but we really need a way 
to sort of integrate them into practice, and that--so I think 
practice-focused research at public health agencies and the CDC 
is really important to making sure that we actually move 
research into actually making a difference on the ground.
     Mr. Foster. And have there been, you know, big studies 
that actually come up with, here's the holistic plan, here's 
rough budgets? You know, are--is this something where it was 
done 15 years ago by the National Academies, and ignored by 
Congress, or is that--there actually the need for, OK, let's 
just sit down and, in an international context, come up with a 
plan that has those elements that I mentioned and others? Dr. 
Murray?
     Dr. Murray. Yes, if I can answer part of that? The--to 
answer the first part of your question, there is a group that 
is newly formed, the Global Virome Project, that is looking at 
the 1.7 million as yet unknown viruses. Their goal is to 
identify and characterize all of that in--much in the same way 
as the Human Genome Project started out, and provided a wealth 
of information. We have had, for the last 10 years, a global 
program looking at human and animal health, as well as 
syndromic surveillance in country, laboratory building. That's 
the one I was describing that's just in the process of shutting 
down now.
     I would suggest that this is not the time for the U.S. to 
be pulling out, but, if we have a program that's doing it, if 
anything else, we need to continue and expand, and incorporate 
more of the type of folks we have here. And part of that 
program also had what Dr. Sell was working on----
     Mr. Foster. I'm sorry, I guess I'm----
     Chairman Bera. Yeah. We're----
     Mr. Foster [continuing]. Exceeding time here.
     Chairman Bera. We're going to try to get one last question 
in, since they called votes on us. The gentleman from Virginia, 
Mr. Beyer, is recognized for five----
     Mr. Beyer. Mr. Chairman, thank you very much, and thank 
you all so much for being here. This--incredibly important 
topic. And, Dr. Hotez, it's nice to see you again, 30 years 
after first coming across your incredible landmark work on the 
hookworm vaccine, so, good luck. I want to start by submitting 
a letter I--yesterday supported by 60 Members of Congress 
sharing my concern about the ineffective White House response, 
the lack of a chain of command, sharing conflicting 
information, et cetera, so--and how we stand ready to improve 
it. So, if there's no objection, Mr. Chairman?
     And, Dr. Sell, first, with apologies, I hate asking yes or 
no questions because they tend to be gotcha questions here, so 
please know that, time allowing, there will be time for 
paragraph questions later, but I'd like to make just some--a 
quick point, so five yes or no questions would be helpful----
     Dr. Sell. OK.
     Mr. Beyer [continuing]. And then we'll move. First, the 
World Health Organization says that the death rate from 
coronavirus is over 3 percent of those infected. Do you have 
any reason to believe that the actual figure is a fraction of 1 
percent?
     Dr. Sell. A fraction of 1 percent?
     Mr. Beyer. Yeah.
     Dr. Sell. Yes.
     Mr. Beyer. OK. Thank you. Would you say that the World 
Health Organization statistics on the spread of the novel 
coronavirus are false?
     Dr. Sell. No.
     Mr. Beyer. Will we have a vaccine soon, or within a few 
months?
     Dr. Sell. No.
     Mr. Beyer. Are we likely to get a quick cure?
     Dr. Sell. By cure do you mean a treatment?
     Mr. Beyer. Well----
     Dr. Sell. I have to say possibly, because there's drug 
trials.
     Mr. Beyer. OK, great. And should Americans who have the 
coronavirus symptoms, or believe themselves to be sick, go to 
work and risk spreading the disease?
     Dr. Sell. No.
     Mr. Beyer. Would you generally agree that all those 
statements are false? The panel. Let me go on--the--Dr. Sell, 
one last question, would you say that it would endanger 
American lives to spread disinformation that would cause people 
to go to work, and potentially spread the coronavirus because 
the public was misled about the dangers of this deadly disease?
     Dr. Sell. Misleading the public about a disease is wrong.
     Mr. Beyer. And so the sad part here is that these 
statements, which most scientists--well, every scientist 
testifying today, would agree endanger American lives were 
actually made by our President to large audiences in the last 3 
days. Scientists just told me that Trump's coronavirus 
statements about a soon--quick vaccine, a quick cure, it's OK 
to go to work, that all these things are endangering American 
lives. And, to be clear, the CDC advises anyone exhibiting 
symptoms of coronavirus, such as a fever, coughing, or 
shortness of breath, stay home from work, avoid public areas as 
much as possible, and seek medical attention.
     The Tuesday briefing from Vice President--was not 
televised. He came here and talked I think four different 
times. On Monday we heard reports that the CDC stopped 
disclosing the stats on how many Americans are being tested. At 
a time of high uncertainty in the face of a likely pandemic, 
should the American administration more transparent or less? 
Maybe Dr. Hotez? Or Dr. Sell?
     Dr. Sell. I'll just be quick. The administration should be 
transparent. They should be clear about what they know. They 
should tell the truth, be clear about what they don't know, 
what they're doing to try to find out those missing pieces of 
information, and be clear about what the course is, and what 
information might change that course.
     Mr. Beyer. Great. Thank you. Dr. Brownstein, we've heard a 
claim that focusing on testing is no longer needed once the 
disease has spread, you know, that it's in the community, that 
testing is moot. We've also heard the test--sentiment from many 
that they'd rather over-test folks than under-test folks. Do 
you think that testing will still be valuable when it starts to 
spread into a community?
     Dr. Brownstein. Yeah. I think it's important to actually 
have an accurate picture, because the dynamic of this virus is 
going to change as it moves from community to community, and 
understanding the impact that it's having at scale is going to 
be critical. And so, just like we do this for the influenza on 
a seasonal basis, where we test for flu to understand what the 
underlying illness is, the idea of doing this at scale for 
coronavirus makes a lot of sense.
     Mr. Beyer. Dr. Hotez, you've done so much work on vaccines 
over the decades, and you testified earlier quite well about 
it. What's the best the American people can hope for, in terms 
of a quick vaccine, or a soon vaccine, or----
     Dr. Hotez. Well, you know, I think it's really important 
to remember that vaccines are not quick, and that has a lot to 
do with vaccine confidence in the United States, because, as 
you know, we have a very aggressive anti-vaccine movement here 
in this country, and, as of the last couple of years, it's 
affecting public health, right? Measles came back in 2019 
because of the anti-vaccine movement. Historically, when we've 
had measles epidemics, it peaks now, late winter, early spring, 
so we may be battling two epidemics. We still have 16,000 
Americans who've died of flu, including 100 kids most who were 
not vaccinated. So I think it's really important not to tell 
the American public that we will have a quick vaccine, because 
that's not how it works. We have to reassure the public that we 
don't give out vaccines unless they're thoroughly tested, and 
they are the most thoroughly tested pharmaceuticals we have for 
safety.
     Mr. Beyer. And, Mr. Chairman, as I yield back, I just want 
to thank Dr. Hotez too for leading the fight against the anti-
vaxxers, and that misinformation.
     Chairman Bera. Thank you, Mr. Beyer. Before we bring this 
hearing to a close, I want to thank all of our witnesses for 
testifying before the Committee today. The record will remain 
open for 2 weeks for additional statements from Members, and 
for any additional questions the Committee may ask of the 
witnesses. With that, the witnesses are excused, and this 
hearing is now adjourned.
     [Whereupon, at 10:45 a.m., the Subcommittee was 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
